Oversight
Report
             DEFENSE CONTRACT AUDIT AGENCY
               QUALITY ASSURANCE PROGRAM


Report Number D-2002-6-001              December 6, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this oversight report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932

  Suggestions for Evaluation

  To suggest ideas for or to request evaluations, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identify of each writer and caller is fully protected.




Acronyms
APPS                 Automated Planning and Performance System
CAM                  DCAA Manual 7640.1, “DCAA Contract Audit Manual”
DCAA                 Defense Contract Audit Agency
ESC                  Executive Steering Committee
FAO                  Field Audit Office
GAS                  Government Auditing Standards
ICAPS                Internal Control Audit Planning Summary
MRD                  Memorandum for Regional Directors
PCIE                 President’s Council on Integrity and Efficiency
RQA                  Regional Quality Assurance Division
SAS                  Statement on Auditing Standards
                       Office of the Inspector General, DoD
Report No. D-2002-6-001                                              December 6, 2001
  Project No. D2000OA-0238

                        Defense Contract Audit Agency
                         Quality Assurance Program

                                Executive Summary

Introduction. This is the first in a series of reports on the Defense Contract Audit
Agency quality assurance program. The Defense Contract Audit Agency internal
quality control system is implemented at all levels of the organization and is
multi-functional, covering elements of vulnerability assessment, internal control review,
external audit followup, audit quality review, and management improvement efforts.
The “Government Auditing Standards,” June 1994, issued by the Comptroller General
of the United States, requires that each audit organization have an appropriate quality
control system. For FY 2000, the Defense Contract Audit Agency completed
41,722 reviews, valued at $194.8 billion, with net savings of $2.4 billion. The Defense
Contract Audit Agency incurred $364.3 million in total operating costs to provide the
audit services.

Objectives. The objective for this evaluation was to review the Defense Contract Audit
Agency’s quality assurance program and to assess how the Defense Contract Audit
Agency performed the internal quality assurance review of forward pricing
assignments, which was the first agency-wide review conducted by the new
headquarters Quality Assurance Division. Subsequent evaluations will assess how the
Defense Contract Audit Agency performs internal quality assurance reviews of internal
control reviews and incurred cost audits, as well as all other assignments.

Results. The Defense Contract Audit Agency quality assurance program incorporates
many of the elements needed for an effective review of an internal quality control
system. Since the program was announced in October 1998, the Defense Contract
Audit Agency has been refining its quality assurance program to include the
fundamental elements of a mature program. The Defense Contract Audit Agency can
improve the capability of the program to provide a thorough agency-wide evaluation of
whether its audits are performed in compliance with auditing standards and Defense
Contract Audit Agency policies and procedures by implementing recommended actions,
suggested improvements, and enhancements (finding A).

The Defense Contract Audit Agency selected forward pricing assignments as the first
category of audits to be reviewed. The internal quality assurance review of forward
pricing assignments identified some areas needing improvement for which the Defense
Contract Audit Agency had either implemented or initiated corrective action. To
resolve the remaining issues, the Defense Contract Audit Agency should revise
guidance on the delegating authority to sign audit reports and documenting reliance on
data from computer-based systems. Timely resolution of issues will ensure that the
Defense Contract Audit Agency internal quality assurance program is effective
(finding B).

The Defense Contract Audit Agency used a checklist it developed based on the
President’s Council on Integrity and Efficiency “Guide for Conducting External Quality
Control Reviews of the Audit Operations of Offices of Inspector General,” April 1997,
to document its internal quality assurance review of the individual forward pricing
assignments. However, the documents generated by the quality assurance staff did not
completely explain the work performed or fully document conclusions reached. In
addition, the Quality Assurance Division did not fully evaluate whether the reviewed
audits met certain auditing standards. The Defense Contract Audit Agency needs to
modify its procedures for future internal quality assurance reviews so an external
reviewer can place greater reliance on the Defense Contract Audit Agency work when
conducting oversight reviews. If the Defense Contract Audit Agency adequately
documents the internal quality assurance reviews, the external reviewers may use the
results as direct evidence to support its overall opinion of the internal quality assurance
program (finding C).

Summary of Recommendations. We recommend that the Defense Contract Audit
Agency formalize its policies and procedures for conducting internal quality assurance
reviews before starting the next review; monitor the internal quality assurance program
to ensure that the program is completed as planned during the 3-year cycle;
institutionalize formal procedures for tracking corrective actions to include timely
implementation; and conduct independent reviews of all the field audit offices within
the 3-year cycle. In addition, we recommend revising policy to prohibit supervisory
auditors, when acting as field audit office managers, from signing audit reports issued
on audit assignments they supervised as well as issuing clarifying guidance for
documenting reliance on data from computer-based systems.

We recommend that the Defense Contract Audit Agency sufficiently document all
auditor conclusions when performing internal quality assurance reviews. In addition,
we recommend revising checklist questions to more fully assess reliance on data from
computer-based systems, the understanding of internal controls, and cross-referencing
of draft reports; revising the standard audit programs for forward pricing assignments
to include audit steps that address assessment of audit risk; modifying agency guidance
to provide additional guidance on proper cross-referencing of reports; and establishing
criteria for rating field audit offices.

Management Comments. The Defense Contract Audit Agency generally concurred
with the recommendations to formalize its policies and procedures; monitor the
program to ensure that it is completed as planned; institutionalize formal procedures for
tracking corrective actions; conduct independent reviews of all the field audit offices;
issue clarifying guidance for documenting reliance on data from computer-based
systems; consider revising checklist questions; revise the standard audit programs;
modify guidance on proper cross-referencing of reports; and establishing rating criteria.




                                            ii
The Defense Contract Audit Agency nonconcurred with conducting an independent
review of Field Detachment, stating that to appropriately plan, supervise, analyze, and
report the results would require that several additional personnel obtain the appropriate
security clearances. The Defense Contract Audit Agency nonconcurred with revising
policy on delegation of signature authority, stating that precluding an acting field audit
office manager from signing his or her own reports when required by the circumstances
would further complicate an already complex policy without significant benefit. The
Defense Contract Audit Agency nonconcurred with sufficiently documenting all auditor
conclusions that do not identify a deficiency, stating that it would not be prudent to
commit the limited quality assurance resources to providing sufficient documentation in
support of all determinations of compliance with a given auditing standard or element
of agency policy.

A discussion of management comments to the findings is in Appendix B. A discussion
of management comments to the recommendations is in the Findings section of the
report and the complete text is in the Management Comments section.

Evaluation Response. The Defense Contract Audit Agency comments are generally
responsive. However, we do not fully agree with their positions on conducting an
independent review of Field Detachment, revising policy on delegation of signature
authority, and sufficiently documenting auditor conclusions. On conducting an
independent review of Field Detachment, we believe that such a review is still
necessary. On revising policy on delegation of signature authority, our position is that
requiring the independent review of audit reports deemed sensitive by Defense Contract
Audit Agency management is an important management control procedure and helps
ensure that higher level managers are satisfied with the overall quality of the product
and that the message is sound, addresses the objectives, and meets customer needs. On
sufficiently documenting all auditor conclusions, our position is that for an external
reviewer to understand how the quality assurance reviewer concluded that a particular
standard was complied with requires some indication of the reviewer thought process
and the documentation that led him to such a conclusion. In addition, for the external
reviewer, an internal quality assurance reviewer conclusion that auditing standards are
met is as significant as a conclusion that standards are not met. For us to place
maximum reliance on Defense Contract Audit Agency work, we need an audit trail
from significant findings and conclusions discussed in trip reports to the working papers
that support them. We request that the Defense Contract Audit Agency provide
comments to the final report by February 4, 2002.




                                            iii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               3

Findings
     A. Defense Contract Audit Agency Quality Assurance Program               4
     B. Internal Quality Assurance Review of Forward Pricing Assignments     19
     C. Implementation of the Internal Quality Assurance Review of Forward
          Pricing Assignments                                                28

Appendixes
     A. Evaluation Process
         Scope                                                               46
         Methodology                                                         46
         Prior Coverage                                                      47
     B. Management Comments on the Findings and Evaluation Response          48
     C. Report Distribution                                                  53

Management Comments
     Defense Contract Audit Agency                                           55
Background
            This is the first in a series of reports on the Defense Contract Audit Agency
            (DCAA) quality assurance program. The “Government Auditing Standards”
            (GAS), issued by the Comptroller General of the United States, requires that
            each audit organization have an appropriate quality control system. The
            organization’s internal quality control system should provide reasonable
            assurance that it has adopted and is following applicable auditing standards and
            has established and is following adequate auditing policies and procedures.

            President’s Council on Integrity and Efficiency. The President’s Council on
            Integrity and Efficiency (PCIE) was established to identify, review, and discuss
            areas of weakness and vulnerability in Federal programs and operations; to
            develop plans for coordinated, Government-wide activities that address those
            issues; and to promote economy and efficiency in Federal programs and
            operations. As part of that mandate, the PCIE developed the “Guide for
            Conducting External Quality Control Reviews of the Audit Operations of
            Offices of Inspector General” (PCIE Guide), April 1997, as a tool to promote
            consistency in conducting quality control reviews in accordance with GAS. The
            PCIE Guide is advisory and is not intended to replace a reviewer’s professional
            judgment regarding the approach or scope of a review. The PCIE Guide
            includes a variety of checklists that organizations can use as tools when
            conducting quality control reviews.

            DCAA Organization and Functions. DoD Directive 5105.38, “Defense
            Contract Audit Agency,” June 9, 1965, established DCAA as a separate
            organization under the direction, authority, and control of the Under Secretary
            of Defense (Comptroller).1 The primary mission of DCAA is to perform
            contract audits for DoD. In addition, DCAA is responsible for providing
            accounting and financial advisory services regarding contracts and subcontracts
            to DoD Components that perform procurement and contract administration
            duties. Also, DCAA provides contract audit services for non-DoD Federal
            organizations on a reimbursable basis. For FY 2000, DCAA completed
            41,722 reviews, valued at $194.8 billion,2 with net savings of $2.4 billion.
            DCAA incurred $364.3 million in total operating costs to provide the audit
            services. DCAA audit guidance is contained in DCAA Manual 7640.1,
            “DCAA Contract Audit Manual” (CAM).3 Specifically, CAM Section 2-101
            states that GAS is applicable to DCAA. DCAA ensures compliance with the
            applicable auditing standards throughout audit planning and performance
            activities by supplementing audit guidance in the CAM with standard audit
            programs and internal control matrices. Between CAM updates, DCAA


1
    Formerly the Assistant Secretary of Defense (Comptroller).
2
    The amount represents dollars examined or reviewed by DCAA for forward pricing assignments,
    incurred cost audits, and special audits (for example, terminations, claims, and Government facility
    rentals).
3
    DCAA Manual 7640.1 is updated every six months. As of November 2000, the most recent version is
    July 2001.
                                                       1
           headquarters notifies managers of new and revised audit guidance by issuing
           Memorandums for Regional Directors (MRD) that are usually incorporated in
           the next CAM update.

           DCAA Quality Assurance Program. DCAA MRD 98-P-147(R),
           “Establishment of Quality Assurance Division,” October 23, 1998, established a
           Quality Assurance Division at DCAA headquarters and in each of the five
           regions and Field Detachment.4 The headquarters and Regional/Field
           Detachment Quality Assurance Divisions are responsible for developing and
           executing an agency-wide program to provide reasonable assurance that DCAA
           has adopted and follows applicable auditing standards, and has established and
           follows adequate auditing policies and procedures. Additional functions include
           assessing the need for new or revised guidance, supporting external quality
           control reviews, accompanying external auditors on field visits, serving on
           process action teams, assisting in responding to inquiries, and identifying
           “best-in-class” processes for use throughout DCAA.

                   Executive Steering Committee. The Executive Steering Committee
           (ESC) is responsible for providing overall management and direction for the
           DCAA total quality management program. In addition, the ESC is responsible
           for establishing the DCAA vision and strategic goals; identifying quality
           improvement projects; evaluating quality improvement projects suggested by
           others; approving/disapproving DCAA process action teams; and maintaining
           active communication and coordination with the quality management boards
           regarding their process action team activities and recommendations. Committee
           members include the Director, Deputy Director, assistant directors of the
           headquarters components, directors of the five regions and Field Detachment,
           and General Counsel. The ESC meets quarterly and is briefed on issues such as
           the Director’s performance contract, strategic plan, advanced degrees and
           certifications, procurement plans, and the DCAA internal quality assurance
           program. If necessary, the ESC establishes action items for tasks to be
           completed or information to be provided. A listing of action items is maintained
           for the Director, DCAA, by the Executive Officer.

                  Headquarters Quality Assurance Division. The DCAA headquarters
           Quality Assurance Division performs formal internal quality assurance reviews
           based on the PCIE Guide and other quality assurance-related reviews throughout
           DCAA. When conducting the reviews, the Quality Assurance Division assesses
           compliance with applicable auditing standards and audit policies and procedures,
           the need for enhanced or new audit policy guidance, and best practices for use
           throughout the agency.

                   Regional Quality Assurance Divisions. The Regional Quality
           Assurance Divisions (RQA), including Field Detachment, assist the DCAA
           headquarters Quality Assurance Division in performing the agency-wide quality
           assurance reviews and other agency-wide quality assurance projects. At the
           direction of their respective regional directors, the RQAs also perform regional

4
    Field Detachment is responsible for the overall planning, management, and execution of worldwide
    DCAA contract audits of compartmented programs.

                                                     2
           quality assurance reviews and projects to assess compliance with applicable
           policies and procedures, the need for enhanced or new audit guidance, and best
           practices for regional use. In addition, the RQAs perform special reviews as
           required by the regional directors. When performing regional quality assurance
           and special reviews, the RQA chiefs report directly to the directors of their
           respective regions. When performing agency-wide reviews under the direction
           of the headquarters Quality Assurance Division, the RQA staffs assigned to the
           review report indirectly to the chief of the headquarters Quality Assurance
           Division.

           DCAA Internal Quality Assurance Reviews. Beginning in FY 1999, DCAA
           established a 3-year cycle for conducting internal quality assurance reviews.
           DCAA determined that its workload fell into four major categories—forward
           pricing assignments, internal control reviews, incurred cost audits, and all other
           assignments.5 DCAA decided to conduct separate internal quality assurance
           reviews for each of the major audit categories. DCAA plans to have all reviews
           completed by April 2002 and to brief the ESC in June 2002.



Objectives
           The objective for this evaluation was to review the DCAA quality assurance
           program and to assess how DCAA performed the internal quality assurance
           review of forward pricing assignments, which was the first agency-wide review
           conducted by the new headquarters Quality Assurance Division. Subsequent
           evaluations will assess how DCAA performs internal quality assurance reviews
           of internal control reviews and incurred cost audits as well as all other
           assignments. See Appendix A for a discussion of the evaluation scope,
           methodology, management control program review, and prior coverage.




5
    Examples of other assignments include defective pricing audits, progress payment audits, operations
    audits, and termination audits.
                                                      3
            A. Defense Contract Audit Agency
               Quality Assurance Program
            The DCAA quality assurance program incorporates many of the elements
            needed for an effective review of an internal quality control system.
            Since the program was announced in October 1998, DCAA has been
            refining its quality assurance program to include the fundamental
            elements of a mature program. DCAA can improve the capability of the
            program to provide a thorough agency-wide evaluation of whether
            DCAA audits are performed in compliance with auditing standards and
            DCAA policies and procedures by implementing the recommended
            actions, suggested improvements, and enhancements.



Quality Assurance Policies
     Government Auditing Standards. The GAS are standards for audits that are
     performed on Government organizations, programs, activities, and functions.
     The standards also apply to audits of Government assistance that contractors,
     nonprofit organizations, and other non-Government organizations receive.
     GAS 3.31 requires that, “Each audit organization conducting audits in
     accordance with these standards should have an appropriate internal quality
     control system in place.” In addition, GAS requires that an organization’s
     internal quality control system provides reasonable assurance that the
     organization has adopted and follows applicable auditing standards and has
     established and follows adequate audit policies and procedures. GAS states that
     the nature and extent of an organization’s internal quality control system is
     dependent on factors such as size, the degree of operating autonomy among
     offices and personnel, the nature of the work, organizational structure, and
     appropriate cost/benefit considerations. Therefore, the internal quality control
     systems established by organizations will vary, as will the extent of the
     documentation.

     PCIE Guide. The PCIE Guide reiterates the guidance in GAS and provides
     additional guidance on the internal quality control system as well as guidance for
     conducting internal quality assurance reviews. The PCIE Guide states that an
     organization’s internal quality control policies and procedures encompass, at a
     minimum, the elements of staff qualifications, independence, audit performance,
     and internal review. In addition, the PCIE Guide outlines the characteristics of
     an internal quality assurance review. Also, the PCIE Guide includes a
     “Checklist for Assessment of Internal Quality Assurance Program [PCIE
     Appendix C],” which can be used as a tool to evaluate an organization’s quality
     assurance program.




                                         4
DCAA Internal Quality Control System
            The DCAA internal quality control system encompasses the agency’s
            organizational structure. The PCIE Guide states that an organization’s internal
            quality control system should be comprehensive and designed to provide
            reasonable assurance that the organization has adopted and follows applicable
            auditing standards and has established and follows adequate audit policies and
            procedures. The DCAA internal quality control system is implemented at all
            levels of the organization and is multifunctional, covering elements of
            vulnerability assessment, internal control review, external audit followup,6 audit
            quality review, and management improvement efforts. Organizationally, DCAA
            is divided into a headquarters, 5 regions, Field Detachment, and 81 field audit
            offices (FAOs7). DCAA considers all the organizational layers to be part of its
            internal quality control system.

            DCAA-Wide Quality Control System. The DCAA-wide quality control
            system is defined in the CAM and in DCAA regulations and instructions.
            DCAA-wide quality controls include use of standard audit programs and
            standard checklists for reviewing audit reports; fact-finding visits by DCAA
            headquarters program managers who use tools such as centrally directed surveys
            and internal checklists; headquarters desk reviews; onsite reviews of internal
            systems by DCAA specialists such as industrial engineers; and reviews by peers
            outside the organization being reviewed. In addition, the DCAA quality
            assurance program is an integral part of the quality control system.

            Regional and Field Detachment Quality Control Systems. Regional quality
            control systems implemented by the regional directors and managed by the
            RQAs, including the Field Detachment Quality Assurance Division, are an
            integral part of the DCAA quality control system. Regional policies and
            procedures set forth quality controls that include delegation of authority;
            separation of duties; accountability of resources; recording, documenting, and
            resolving audit findings; pre-issuance reviews of sensitive or significant audit
            reports by regional audit managers; post-audit quality reviews by the regional
            audit manager; and monthly post-issuance review of audit reports. The RQAs
            also perform compliance reviews as requested by regional directors.

            FAO Quality Control System. Within each region, DCAA has established
            between 11 and 16 FAOs. The FAOs are responsible for implementing a sound
            quality control system based on headquarters and regional guidance. Peer
            review processes are an integral part of the FAO-level quality control system.
            FAO quality controls include mandatory pre-issuance review of audits by
            supervisory auditors and pre-issuance reviews of sensitive or significant audits

6
    This function includes following up on findings and recommendations in General Accounting Office and
    Inspector General, DoD, reports.
7
    An FAO can be either a resident office or a branch office. A resident office is established at a
    contractor’s facility whenever the amount of audit work justifies assignment of a permanent staff of
    auditors and support elements. A branch office is not located in a contractor’s facility and performs
    reviews of several contractors.
                                                       5
    by FAO managers. The results of peer reviews are used to identify process
    improvements within FAOs and are forwarded to the region and headquarters
    for use in identifying trends throughout DCAA. FAOs may institute other
    quality control procedures, such as participatory work teams and pre-issuance
    review of all audit reports.



DCAA Headquarters Quality Assurance Program Review
  Process
    The PCIE Guide describes the characteristics that an organization’s quality
    assurance program should integrate into any review of its quality control
    system. Those characteristics include formal quality assurance review
    procedures, adequate staffing, independence, thorough scope of review,
    sufficient evidence, written results, written responses, and an effective followup
    process.

    The DCAA quality assurance program contains elements of each of those
    characteristics. However, DCAA is still in the process of refining its quality
    assurance program based on experience gained from the completed internal
    quality assurance reviews. As a result, DCAA has not yet fully implemented all
    of the needed elements of a mature program. The DCAA methodology for
    preparing written results and written responses meets the intent of the PCIE
    Guide. However, the characteristics of formal quality assurance review
    procedures, staffing, independent review, evidence, followup procedures, and
    scope of review in the DCAA internal quality assurance program need
    improvement to ensure that the program will operate effectively. DCAA has
    either taken corrective action or plans to take corrective action that will improve
    many of the characteristics.

    Formal Quality Assurance Review Procedures. Organizations conducting
    internal quality assurance reviews should have formal policies and procedures.
    DCAA has completed two headquarters-led reviews and is in the process of
    conducting a third. DCAA has not prepared formal policies and procedures for
    conducting the reviews. DCAA has informal procedures in the form of
    Microsoft PowerPoint slides dated March 31, 1999. The slides explain the
    structure and makeup of the quality assurance divisions, general information on
    how the internal quality assurance reviews will be performed, examples of
    quality assurance work, and basic information on how the internal quality
    assurance review of forward pricing assignments would be conducted. DCAA
    recognizes the need for formal policies and procedures and plans to issue an
    instruction by December 31, 2001. However, DCAA began the review of all
    other assignments during October 2001, the last review for the first 3-year
    cycle. DCAA needed to develop formal policies and procedures before
    beginning that review for the external reviewer to evaluate the adequacy of the
    policies and procedures as part of its overall evaluation of the DCAA quality
    assurance program.


                                         6
Staffing. The PCIE Guide recommends that review teams be led by a senior
manager and that the reviewers have an appropriate level of experience. The
DCAA quality assurance staff consists of about 35 auditors. The headquarters
Quality Assurance Division consists of one GS-15 division chief and four GS-14
program managers. In addition, each RQA staff consists of one GS-14
supervisor and four GS-13 auditors. Each RQA staff reports to a regional
director. DCAA requires that the quality assurance staffs comply with
continuing professional education requirements outlined in GAS.

When DCAA established its quality assurance divisions in October 1998, it
reassigned personnel from other divisions within the organization. As of
December 17, 1998, DCAA had reassigned a total of 7 employees to the quality
assurance divisions and by March 31, 1999, DCAA had reassigned a total of
20 employees to the quality assurance divisions. The initial staffing was
adequate for performing the internal quality assurance review of forward pricing
assignments. The headquarters Quality Assurance Division, RQAs, and Field
Detachment Quality Assurance Division were staffed with 31 employees as of
December 16, 1999. The original staff level of 35 appeared adequate to
perform the original assigned duties.

DCAA established the headquarters Quality Assurance Division primarily to
develop and execute an agency-wide quality assurance program. DCAA has
subsequently added responsibilities, such as providing assistance in preparing
the DCAA FY 2000 financial statements. The headquarters Quality Assurance
Division expended 1,500 staff-hours on the unplanned task. DCAA needs to
closely monitor the status of the quality assurance workload to ensure that the
quality assurance program is accomplished within the 3-year cycle.

Independent Review. The PCIE Guide recommends that the review team
leader report to an individual or a level within the organization that will ensure
independence and objectivity in the performance of internal quality assurance
reviews. The headquarters Quality Assurance Division reports to the Assistant
Director, Policy and Plans. In addition, when DCAA established the process
for assigning the auditors to the internal quality assurance reviews, DCAA
determined that personnel from the RQAs would not be allowed to review any
FAOs within their own regions. DCAA made that decision to ensure that the
auditors maintained independence because auditors assigned to RQAs report to
the respective regional directors. However, the same reasoning was not applied
to the assessment of Field Detachment. DCAA decided that the Field
Detachment Quality Assurance Division would conduct the internal quality
assurance review of Field Detachment audits. DCAA decided not to
independently assess Field Detachment because of workload, security
considerations, and because DCAA considers the Field Detachment Quality
Assurance Division independent because it is separate from Field Detachment
audit operations.




                                     7
       Field Detachment Workload. DCAA decided not to independently
assess Field Detachment because of “the low relative significance” of the Field
Detachment workload. However, as shown by the following table, Field
Detachment roughly equals one-half of a DCAA region with almost an equal
number of FAOs.


          Table 1. Relationship of Field Detachment to Overall DCAA

                               # FAOs1           Staffing2         Hours3

     Eastern                       14              677          1,403,752
     Northeastern                  15              598          1,247,754
     Western                       16              740          1,572,799
     Central                       12              671          1,376,908
     Mid-Atlantic                  13              781          1,531,615
     Field Detachment              11              335            640,587
     Headquarters/
      Miscellaneous                 0              370             427,024

          Total                    81            4,172          8,200,439
      1
        DCAA Publication 5100.1, “Directory of DCAA Offices,” January 2000, except
       for Field Detachment.
      2
        DCAA MRD 99-OWD-087, “Fiscal Year 2000 Planning and Staff Allocation
       Document,” July 23, 1999.
      3
        DCAA report, “Comparative Statistics – Major Workload Categories
       September 1997, 1998, 1999.”


Field Detachment was allocated about 8 percent of the total DCAA staff and
expended about 8 percent of the total hours. On average, each of the five
regions was allocated about 17 percent of the total staff. In addition, we believe
that assignments conducted by Field Detachment have the potential to be high
risk because the assignments get less visibility outside of Field Detachment
because they are audits of classified programs. Also, DCAA did not consider
how the geographic dispersion of FAOs affects implementation of quality
controls such as oversight. For example, the FAO that we visited had
46 auditors in 9 separate locations in 4 states. In addition, while the five
regions are organized geographically, FAOs within Field Detachment are
dispersed nationwide, providing less opportunity for oversight.

        Field Detachment Security Considerations. DCAA determined that it
was in the best interest of DoD for the Field Detachment Quality Assurance
staff, with existing clearances, to perform the PCIE-based reviews at Field
Detachment FAOs rather than maintaining a cleared contingent within the
headquarters Quality Assurance Division. DCAA made that decision based on
the low relative significance and high security aspects of Field Detachment audit
work. In addition, DCAA anticipated that the external reviewer would evaluate
and perform some retesting of the Field Detachment quality assurance work and
provide feedback on the results of that effort. DCAA should not assume that

                                        8
external reviewers will always retest Field Detachment Quality Assurance
Division work. DCAA has responsibility for ensuring that its internal quality
assurance program is performed independently and objectively. Only one or
two DCAA auditors with clearances would be needed because of the limited
time spent on the quality assurance reviews at each FAO. For example, only
three Field Detachment FAOs were assessed and DCAA internal review teams
consisting of two or three staff conducted each site visit over a 5-day period. In
addition, only four of the seven assignments that we reviewed as part of this
review contained classified information; therefore, a noncleared auditor could
review the unclassified Field Detachment assignments in certain situations.

        Field Detachment Quality Assurance Division Structure. The Quality
Assurance Divisions for all five regions and Field Detachment are structured the
same. The Field Detachment Quality Assurance Division chief, like the RQA
chiefs, reports directly to the respective director. The Field Detachment Quality
Assurance staff, like the RQA staffs in the five regions, are physically located at
various FAOs. The Director, Field Detachment, like the other regional
directors, is responsible for the overall management of the Field Detachment
audit operations that the Field Detachment quality assurance staff is reviewing.
Therefore, the Field Detachment quality assurance staff is only minimally
independent from the field audit operations.

For the headquarters-led quality assurance review, Field Detachment was
treated differently than the five regions. Specifically, the Field Detachment
Quality Assurance staff reviewed FAOs within their own region while the RQA
staffs were not allowed to review any FAO within the region to which they were
assigned. In addition, the Director, Field Detachment, signed the
memorandums that transmitted the review results to the three FAO managers in
Field Detachment while the Assistant Director, Policy and Plans, signed the
memorandums that transmitted the review results to the five regional directors.
Also, the lead reviewer from the Field Detachment Quality Assurance Division
signed the memorandums for record that detailed the review results for the
3 FAOs in Field Detachment while either the Chief or the lead reviewer of the
DCAA headquarters Quality Assurance Division signed the memorandums for
record that detailed the review results for the 15 FAOs in the 5 regions. While
the headquarters Quality Assurance Division performed some oversight of the
Field Detachment work by reviewing trip reports, the headquarters Quality
Assurance Division did not have sufficient information to determine whether the
assessment conducted by the Field Detachment Quality Assurance Division was
consistent with the reviews of the five regions. Therefore, the quality assurance
reviews performed on Field Detachment audits were not independently
conducted and had limited additional headquarters oversight to help ensure an
independent assessment.

Because of the isolation of Field Detachment created by security requirements
and how DCAA has decided to perform headquarters-led internal quality
assurance reviews, DCAA has less assurance that the quality control system
within Field Detachment is operating effectively. In addition, best practices or
lessons learned may not be as readily shared between Field Detachment and the
rest of DCAA.
                                     9
Evidence. The PCIE Guide recommends that competent evidential matter be
gathered and, where applicable, sufficient testing accomplished to determine
whether the organization is in compliance with applicable auditing standards,
policies, and procedures. DCAA developed an understandable, methodical
process for selecting which FAOs and audit assignments to review. The
selection criteria varied depending on the audit type being reviewed. See
Finding B for a description of the process used on the internal quality assurance
review of forward pricing assignments.

DCAA gathered what it considered sufficient evidence to evaluate whether its
auditors were complying with applicable auditing policies and procedures.
However, in conducting our review of forward pricing assignments, we had to
do significant retesting because additional documentation was needed for us to
form an opinion on the quality assurance work performed. See Finding C for a
discussion of this issue.

Written Results. The PCIE Guide recommends the preparation of written
results for each review that include recommendations for corrective actions
when applicable. DCAA prepared trip reports that summarized the results of
the review at each FAO and provided the trip reports to the FAO manager and
the regional directors. The trip reports also function as the summary working
paper. DCAA prepared and presented a briefing to the ESC in December 1999
that summarized the results of the review and the proposed corrective actions.
That approach meets the intent of the characteristic outlined in the PCIE Guide.
DCAA could enhance its program by issuing a summary report for each quality
assurance review performed.

Written Responses. The PCIE Guide recommends that written responses be
provided on each recommendation which should include proposed corrective
actions or corrective actions already taken. Each FAO that DCAA reviewed
provided written responses to draft trip reports, which DCAA considered and
included in final trip reports. Agreement on what deficiencies need to be
addressed is the first step toward improving audit performance. That approach
incorporates the characteristic outlined in the PCIE Guide.

Followup Procedures. The PCIE Guide recommends that procedures be
established for resolution and followup of recommended corrective action. A
good followup system should provide information on the improvements made as
a result of the work and whether the improvements achieved the desired result.
Determining actions that were taken on recommendations requires continual
monitoring of the status of recommendations. DCAA has two separate followup
processes for monitoring the status of actions taken as a result of issues found
during the headquarters-led internal quality assurance reviews. The specific
followup process used depends on which division is assigned the responsibility
for the corrective action established by the ESC. Any corrective action adopted
by the ESC is assigned an action item number and is included in a database
maintained by the Executive Officer for the Director, DCAA. If the ESC
assigns the responsibility for a corrective action to a headquarters component,
that component is responsible for followup. If the regions are assigned the
responsibility, then the regional directors are responsible.

                                    10
        Headquarters Followup Process. As part of the management and
execution of the quality assurance program, the headquarters Quality Assurance
Division briefs the ESC on the various significant issues identified during the
internal quality assurance reviews. As part of this process, headquarters Quality
Assurance Division recommends potential corrective actions. If the ESC adopts
a corrective action and assigns the action to a headquarters element, that
component is responsible for followup. The ESC and the headquarters Quality
Assurance Division are responsible for monitoring the followup. Most
corrective actions that fit into that category are for agency-wide issues that
require revisions to either DCAA policy or audit guidance.

        RQA Followup Process. In general, each region, including Field
Detachment, is responsible and accountable for implementing the corrective
actions taken as a result of its regional quality assurance program and for
maintaining appropriate documentation on the implementation. For each
headquarters-led quality assurance review, the regional directors are required to
prepare corrective action plans that discuss issues noted in the trip reports for
the FAOs and to submit the plans to the Director, DCAA. In addition, the ESC
can adopt a corrective action and assign the action to the regions for either
implementation or followup. The action items are tracked through the ESC
database. For action items assigned to the regions, DCAA relies on the regional
directors to independently ensure that corrective action is taken. The regional
directors can task the RQAs to verify that a corrective action has been properly
implemented. However, the headquarters Quality Assurance Division performs
no additional followup action until the next internal quality assurance review of
the same type audit. DCAA stated:
           Until the ESC Meeting in March 2001, no formal process existed at
           the Headquarters or ESC level for individually tracking the
           completion of each region’s planned action. At that meeting, a new
           DCAA Strategic Plan objective was established entitled Compliance
           with GAGAS. Steps 3 & 7 of the milestone plan for this objective
           require the regions (and Field Detachment) to respectively:

               • Implement (by May 2001) previously established regional
                 action plans resulting from improvement areas identified by
                 FY 1999 PCIE-based reviews.

               • Brief (by December 2001) the ESC on status of progress on
                 previously established regional action plans resulting from
                 improvement areas identified by FY 1999 PCIE-based reviews.

DCAA should institutionalize the process described for future quality assurance
reviews. Failure to properly implement corrective actions can cause a reviewer
to discover repeat findings or issues during the next round of internal quality
assurance reviews. Identification of repeat findings can lead to a qualified
opinion on the internal quality control system depending on the significance of
the issue. Therefore, regional directors should be required to notify the
headquarters Quality Assurance Division when its corrective action plan has
been implemented. Once DCAA establishes formal followup procedures, those
procedures should be included in the written policies and procedures for
conducting internal quality assurance reviews.
                                      11
Scope of Headquarters-Led Quality Assurance Reviews
    DCAA structured its internal quality assurance review program using the PCIE
    Guide as the primary framework for evaluating whether its auditors were
    complying with GAS and CAM. The PCIE Guide recommends that the scope
    of internal quality assurance reviews include a determination about the degree of
    compliance with GAS, applicable PCIE audit policy statements, and applicable
    statutory provisions. In addition, the PCIE Guide states that a thorough review
    would include methods for testing compliance with audit policies and procedures
    established at all levels of an organization. Also, the PCIE Guide recommends
    that an internal quality assurance program cover each of the audit offices issuing
    audit reports and an appropriate cross-section of the types of audits performed.

    Compliance with Auditing Standards and Audit Guidance. DCAA used the
    PCIE Guide as a basis for its reviews. Specifically, DCAA drafted its own
    checklist (DCAA Checklist) by adapting questions from PCIE Appendix E,
    “Financial Statement Presentation and Disclosure Checklist,” (PCIE
    Checklist E), and PCIE Appendix F, “Checklist for Review of Individual
    Performance Audits” (PCIE Checklist F). In addition, DCAA used its own
    “Audit Report Quality Review Sheet for Audit Reports of All Types” (Audit
    Report Checklist) to review the selected audit reports. The DCAA Checklist
    questions contain references to GAS and CAM for most questions. However,
    because of the wording of certain questions or the criteria cited, DCAA did not
    properly evaluate compliance with certain auditing standards, specifically:

            Due Professional Care. DCAA generally agreed that the questions for
    assessing due professional care did not adequately address compliance with the
    standard and agreed to modify the question.

            Internal Controls. DCAA agreed that the questions could be reworded
    to resolve some of our concerns and increase the value and consistency of the
    answers. At a minimum, for future PCIE-based quality assurance reviews,
    DCAA will ensure that the reviewers sufficiently explain and/or document why
    the reviewers believe an auditor has demonstrated an adequate understanding of
    the internal controls despite not appropriately documenting that understanding.
    DCAA will also further examine our proposed changes that relate to checklist
    questions 6.1 and 6.2 to ensure that the significant data that need to be captured
    by these questions are captured.

            Irregularities, Illegal Acts, and Other Noncompliances. Current
    DCAA audit guidance for forward pricing assignments does not require the
    auditor to fully assess audit risk resulting from fraud or other illegal acts
    because the DCAA standard audit programs for forward pricing assignments do
    not include all of the necessary audit steps. Therefore, the criteria that the
    DCAA reviewers used to answer the DCAA Checklist questions were
    incomplete. DCAA has stated that the risk of fraud is generally inherently less
    in pre-award audits because fraud requires that the Government be harmed and
    the Government cannot be harmed until contract award. DCAA agreed to


                                        12
reconsider its position and review each of its forward pricing audit programs to
determine where it might best add appropriate steps to more directly cover those
concerns.

See Finding C for detailed discussion of the DCAA Checklist issues. In
addition, DCAA did not fully consider regional and FAO quality control
policies and procedures in its internal quality assurance review of forward
pricing assignments. DCAA planned to start a review of compliance with the
general standards of staff qualifications and independence for its overall quality
assurance program in October 2001 and to complete the review by March 2002.

        Qualifications and Independence. The GAS general standards of
qualifications and independence serve as the foundation for other auditing
standards. The importance of complying with the fieldwork and reporting
standards rests on the presumption that the audit organization is in compliance
with the general standards. The internal quality assurance review process that
DCAA initially developed included plans to review compliance with the general
standards of qualifications and independence throughout the agency. Those
plans did not include testing at the FAO level.

                Qualifications. Subsequent to the start of the 3-year cycle,
DCAA decided to postpone its review of qualifications—specifically continuing
professional education—until FY 2002 because DCAA was in the process of
revising guidance on continuing professional education requirements. DCAA
plans to complete the review by March 2002. However, a complete review of
qualifications covers more than continuing professional education requirements.
The review should include hiring and promotion policies and procedures and the
use of external consultant and internal experts. The DCAA headquarters
Quality Assurance Division plans to gather relevant documentation on
qualifications before the end of the 3-year cycle.
               Independence. The DCAA headquarters Quality Assurance
Division plans to gather relevant documentation on independence before the end
of the 3-year cycle and to complete the review of independence by March 2002.
The DCAA Quality Assurance Division can either test whether the applicable
controls are in place and operating as expected for independence or refer to the
review work performed by another DCAA component that they relied on.

DCAA needs to conduct a complete review of the general standards of
qualifications and independence during the 3-year cycle as planned to have
reasonable assurance that its audits are being performed in compliance with
GAS and CAM. GAS 1.14 places the responsibility on the audit organization
for ensuring that qualified personnel conducted the audits and that independence
is maintained.

Assessment of DCAA Multi-Level Quality Control Procedures. The DCAA
quality assurance review of forward pricing assignments did not fully consider
regional and FAO quality control policies and procedures. The DCAA quality
control system includes quality control procedures implemented at headquarters,
the regions, and the FAOs. CAM 2-S10 states:
                                    13
           Direct responsibility for quality in all audit and resource management
           functions is vested in the line and staff managers and supervisors at all
           levels of DCAA. . . . Quality control review planning considers the
           universe of all audit and resource management functions at all
           organizational levels.

To fully assess the adequacy of the DCAA quality control system as described
in CAM, DCAA should have tested compliance with policies and procedures
issued by the regions and the FAOs in addition to DCAA-wide policies and
procedures. However, when completing the DCAA Checklist, the reviewers
did not indicate that they considered anything other than DCAA-wide quality
control policies and procedures. The DCAA staff stated that the internal review
of the quality control system was being conducted in accordance with the PCIE
Guide and believed that the PCIE Guide does not require an evaluation of
regional and FAO-specific quality control policies and procedures. In addition,
the DCAA staff expressed concern that including regional and FAO-specific
quality control procedures would result in the FAOs not being evaluated using
the exact same criteria for each FAO. For the DCAA quality control system to
be considered properly implemented and operating effectively as required by
GAS, regional and FAO-specific quality control policies and procedures must be
included in any internal quality assurance review.

DCAA has taken corrective action to ensure that its quality control system will
be fully evaluated. DCAA has added the question, “Were the quality control
procedures, forms, and checklists required by Regional/FAO policy
appropriately completed/complied with?” to the January 2001 version of the
DCAA Checklist that was being used for the review of incurred cost audits.
Because DCAA has taken corrective action, we have no recommendation.

Review of FAOs. The PCIE Guide recommends that an internal quality
assurance program include all of the audit offices that issue audit reports. All of
the FAOs issue audit reports; however, DCAA never planned to ensure the
review of every FAO in a given 3-year cycle. Although DCAA did not plan to
prohibit two reviews of any FAO during the same 3-year cycle, DCAA has tried
not to review an FAO twice. In addition, DCAA never planned to include the
two overseas FAOs in the headquarters-led quality assurance reviews. DCAA
should revise its planning process to ensure that each FAO is included in at least
one headquarters-led quality assurance review during each 3-year cycle. For the
first 2 quality assurance reviews, DCAA evaluated 36 FAOs. For the third
review, DCAA plans to evaluate 28 FAOs, one of which had already been
included. DCAA currently has 81 FAOs. To ensure coverage of the FAOs, the
fourth quality assurance review should either include the 18 FAOs not
previously reviewed or specifically state why the risk at an excluded FAO did
not warrant inclusion in a quality assurance review.

        Overseas FAOs. DCAA has two FAOs that are physically located
overseas. The European Branch Office is in Germany, with suboffices in Saudi
Arabia and Israel, and reports to the Regional Director, Northeastern Region.
The Pacific Branch Office is in Japan, with suboffices in Hawaii and Korea, and
reports to the Regional Director, Western Region. For the review of the two
overseas FAOs, the regional audit managers conducted self-assessments

                                         14
            whenever they visited those locations. However, the self-assessment does not
            satisfy the need for an independent review. The workload at the two offices is
            significant. In FY 2000, DCAA expended an average of 47,374 audit hours and
            issued an average of 515 reports per FAO. By comparison, in FY 2000, the
            European Branch Office expended 27,328 audit hours and issued 395 reports,
            and the Pacific Branch Office expended 14,071 audit hours and issued
            456 reports. In addition, each FAO has an average staff8 of 47 staff members,
            while the European FAO had 43 staff members and the Pacific FAO had
            21 staff members. Therefore, while the two overseas FAOs are not as large as
            an average FAO, they are still responsible for a considerable number of
            assignments. In addition, the types of reviews performed may be more sensitive
            at those locations because DCAA is normally reviewing foreign entities. The
            Western Region RQA staff has included the Pacific Branch Office in its regional
            quality assurance reviews since FY 1999, the year that the Western Region
            RQA was established. In FY 2000, an RQA reviewer visited the Pacific Branch
            Office for reviews of management information data integrity and
            computer-assisted audit techniques. In addition, the Western Region RQA had
            the Pacific Branch Office mail the data to be included in reviews of defective
            pricing audits in FY 1999 and of nonmajor incurred cost audits in FY 2000.
            The Regional Director, Northeastern Region, is considering including the
            European Branch Office in its regional quality assurance reviews.

            We consider workload of this magnitude to require some independent review. If
            field visits are not practical, other means can be used, such as mailing the
            selected audit files to DCAA headquarters for review in a process similar to that
            now being used by the Western Region RQA. With most DCAA audit work
            now documented with electronic working papers, this option is more easily
            implemented than before. In response to a discussion draft of this report,
            DCAA reconsidered its position as to whether the overseas FAOs should be
            included in the internal quality assurance reviews. On March 30, 2001, DCAA
            notified us that they would begin to include both overseas FAOs in the universe
            of offices potentially selected for future reviews.

            Cross-Section of Audits Reviewed. In designing its headquarters-led quality
            assurance program, DCAA concentrated on ensuring that it covered a broad
            cross-section of audit work. DCAA was concerned that the audit coverage not
            be so broad as to preclude gathering sufficient data to draw meaningful
            conclusions. Beginning in FY 1999, DCAA established a 3-year cycle for
            conducting internal quality assurance reviews that would cover the various types
            of contract audits that DCAA routinely performs. DCAA initially determined
            that its workload fell into three major categories—forward pricing assignments,
            incurred cost audits, and all other assignments. DCAA planned to conduct
            separate internal quality assurance reviews for each of these audits.
            Subsequently, DCAA decided to separately review its audits of contractor
            internal controls instead of including them when reviewing the incurred cost
            audits. Therefore, in total, the DCAA headquarters Quality Assurance Division



8
    Staff includes supervisors, administrative, and regional office staff.
                                                        15
    planned to conduct four quality assurance reviews during the 3-year cycle. That
    method of performing internal quality assurance reviews should provide
    adequate coverage of the routine audits performed by DCAA.



Summary
    The goal of a quality assurance program is to assess whether an organization
    carries out its work in accordance with GAS and established policies and
    procedures. In addition, a quality assurance program may include an objective
    to assess whether the work was carried out economically, efficiently, and
    effectively. The purpose of reviewing a quality assurance program is to
    determine whether the program is adequately designed to meet the objectives of
    quality assurance and whether it produces reports on which the external
    reviewer can rely. While the use of the results of internal reviews as direct
    evidence can reduce the nature or extent of testing performed by the external
    review team, the external reviewer’s opinion on the quality control system
    should not be based solely on evidence provided by the internal reviews. Once
    the quality assurance program is refined and issues discussed above are
    addressed, DCAA should have reasonable assurance that its internal quality
    control system is comprehensive and suitably designed to ensure that DCAA is
    complying with all applicable standards, policies, and procedures.



Management Comments on the Finding and Evaluation
 Response
    Summaries of management comments on the finding and our evaluation
    response are in Appendix B.



Recommendations, Management Comments, and Evaluation
  Response
    A. We recommend that the Director, Defense Contract Audit Agency, as
    part of the quality assurance program:

           1. Develop written policies and procedures for conducting internal
    quality assurance reviews before starting the next review.

    Management Comments. DCAA concurred in principle. DCAA
    acknowledged that the general policies and procedures on Microsoft PowerPoint
    slides should be formalized. However, DCAA stated that assigning additional
    resources to have the formalization completed by July 2001 would adversely

                                      16
           impact the current PCIE-based review plans and schedule. Therefore, DCAA
           planned to formalize the policies and procedures by December 31, 2001,9 prior
           to the start of the next cycle of internal quality assurance reviews. DCAA
           believes that the schedule will allow the Inspector General, DoD, to review
           DCAA policies and procedures well before the completion of its review of
           DCAA’s first cycle of PCIE-based quality reviews.

           Evaluation Response. The DCAA comments meet the intent of the
           recommendation.

                  2. Monitor the work assigned to the headquarters Quality Assurance
           Division to ensure that the internal quality assurance program reviews are
           accomplished during each 3-year cycle.

           Management Comments. DCAA concurred with the recommendation.

                  3. Institutionalize procedures established at the March 2001
           Executive Steering Committee meeting for tracking corrective actions for
           internal quality assurance reviews to include timely implementation.

           Management Comments. DCAA concurred with the recommendation.

                   4. Conduct independent internal quality assurance reviews of all
           field audit offices, including the two overseas field audit offices and Field
           Detachment, within the 3-year cycle.

           Management Comments on Review of All FAOs. DCAA concurred in part.
           Regarding the review of all FAOs during each 3-year cycle, including the two
           overseas FAOs, DCAA stated that they do not believe that it is good policy to
           firmly commit at the beginning of each PCIE-based 3-year review cycle to cover
           all of the FAOs. Nevertheless, under the DCAA current methodology for
           conducting the PCIE-based reviews and given the DCAA revised position
           relating to its two overseas offices, it is very likely that every FAO will be
           covered during the first and subsequent review cycles.

           Evaluation Response on Review of All FAOs. The DCAA comments related
           to reviewing all FAOs meet the intent of the recommendation. While the PCIE
           Guide does not specifically require that all of the offices issuing reports be
           reviewed, the PCIE Guide states that the selection of offices to be reviewed
           should take into consideration the number, size, and geographic distribution of
           the offices; number, type, and importance of reports issued by location; and the
           degree of centralized control over regional and branch offices. In addition,
           General Accounting Office Guide GAO/OP-4.1.6, “An Audit Quality Control
           System: Essential Elements,” August 1993, recommends that, “Over time, all
           organizational units should be reviewed and their products tested.” Therefore,
           it would be prudent if DCAA reviewed every FAO during each of its 3-year
           cycles.

9
    The DCAA comments state that DCAA planned to formalize its policies and procedures by
    September 30, 2001. However, via email of October 30, 2001, DCAA revised its milestone date.
                                                   17
Management Comments on the Required Clearances of DCAA Reviewers
for Field Detachment. DCAA agreed that only two additional DCAA staff
auditors need to obtain the appropriate security clearances to review Field
Detachment. However, DCAA believes that to appropriately plan, supervise,
analyze, and report the results would require that several additional personnel
obtain the appropriate security clearances.

Evaluation Response on the Required Clearances of DCAA Reviewers for
Field Detachment. We agree that management involved in planning,
supervising, analyzing, and reporting the results need the appropriate security
clearances. However, DCAA still needs to conduct an independent review of
Field Detachment. We request that DCAA reconsider its position and provide
comments to the final report.




                                    18
                 B. Internal Quality Assurance Review of
                    Forward Pricing Assignments
                 DCAA selected forward pricing assignments10 as the first category of
                 audits to be reviewed. DCAA developed and implemented a reasonable
                 methodology for selecting FAOs and audit assignments to be reviewed.
                 The DCAA internal quality assurance review of forward pricing
                 assignments identified some areas needing improvement for which
                 DCAA had a process in place to ensure corrective action, had
                 implemented corrective action, or had initiated corrective action.
                 Specifically, DCAA identified issues related to:

                   •    quality of audit reports and supervision for which DCAA
                        determined that no additional corrective actions were needed;

                   •    preparing risk assessments and setting up audit assignments for
                        which DCAA implemented corrective actions;

                   •    delegating authority to sign audit reports for which DCAA
                        implemented corrective action, but a potential area for
                        improvement still exists;

                   •    properly documenting reliance on data from computer-based
                        systems for which DCAA established an action item for
                        implementation of corrective action; and

                   •    audit execution issues for which the regions and Field Detachment
                        were required to prepare corrective action plans.

                 DCAA identified issues that were important for ensuring that quality
                 audits were performed and quality audit reports were issued and DCAA
                 took corrective action to resolve many of the issues. To resolve the
                 remaining issues, DCAA should implement revised guidance on
                 delegating the authority to sign audit reports and documenting reliance
                 on data from computer-based systems. Timely implementation of
                 corrective actions will ensure that the DCAA internal quality assurance
                 program is effective.



Review of Forward Pricing Assignments
        DCAA initiated its internal quality assurance program in February 1999 and
        selected forward pricing assignments as the first category to be reviewed
        because those assignments made up a significant portion of its workload. For

10
 Examples of forward pricing assignments include price proposals, integrated product teams, specified
 cost elements, agreed-upon procedures, and forward pricing rate agreements.
                                                  19
example, in FY 1999 DCAA completed forward pricing reviews covering
$64.9 billion. DCAA developed a two-tiered selection methodology for
determining which FAOs and assignments to review. First, DCAA selected the
FAOs to visit based on the dollar volume of price proposals reviewed. Once the
FAOs were selected, DCAA selected the assignments to be reviewed.

Selection of FAOs. DCAA selected and visited 18 FAOs, 3 per region. The
18 FAOs represented 22.2 percent of the universe of 81 FAOs in existence as of
January 2000. DCAA developed a standard methodology to be used to
judgmentally select the three FAOs to be reviewed in each region. Specifically,
DCAA selected the FAO with the highest number of forward pricing reports
issued, the FAO with the most dollars examined, and the FAO with the most
audit hours expended. DCAA ensured that each region included at least one
branch office and one resident office.
Selection of Forward Pricing Assignments. DCAA selected and reviewed
126 forward pricing assignments, 7 assignments per FAO. The 126 assignments
represented 3.2 percent of the universe of 3,931 assignments completed by all of
the FAOs, 3,413 assignments completed by the 5 regions as of February 28,
1999, and 518 assignments completed by Field Detachment as of May 31, 1999.
DCAA developed a standard methodology to be used to judgmentally select the
7 assignments to be reviewed at each of the 18 FAOs. The seven assignments
were an;

    •   audit of a price proposal of less than $5 million with the most dollars
        examined,

    •   audit of a cost-type-price proposal with the most dollars examined,

    •   audit of a fixed-price proposal with the most dollars examined,

    •   audit of a proposal that resulted from an integrated product team with
        the most dollars examined,

    •   audit of a forward pricing rate proposal on which the FAO expended the
        most hours,

    •   audit of specified cost elements with the most dollars examined, and

    •   agreed-upon procedures review of a proposal on which the FAO
        expended the most hours.

In addition, DCAA developed a methodology for substituting assignments for
FAOs that had not completed assignments in the sampling methodology.

Based on the results of its internal quality assurance review of forward pricing
assignments, DCAA identified areas for improvement and presented that
information, along with proposed corrective actions, to the ESC in
December 1999.


                                    20
Corrective Action Processes in Place
     Quality of Audit Reports. DCAA identified issues relating to the quality of
     audit reports, but determined that no separate action was needed because a
     process was already established that should ensure corrective action took place.
     DCAA established an audit report quality review program in 1995 that included
     the use of the Audit Report Checklist. The regions were required to review a
     sample of reports and submit the results to DCAA headquarters semiannually.
     DCAA summarized the results in an MRD that was provided to the regional
     directors and the Director, Field Detachment. During the internal quality
     assurance review of forward pricing assignments, DCAA used the Audit Report
     Checklist to evaluate the quality of the 126 reports. DCAA found what they
     considered to be significant noncompliances for the following six questions:

         •   Question No. 1. Is the draft report cross-referenced to the working
             papers?
             19 occurrences (15.1 percent)

         •   Question No. 9. Does the qualifications paragraph summarize the
             adverse conditions having a significant impact on the conduct or audit
             scope and reference the detailed explanation of the impact on the audit
             results?
             32 occurrences (25.4 percent)

         •   Question No. 10. Does the results of audit paragraph express or
             disclaim an overall audit opinion? (Several variations of the question
             were present depending on the type of assignment being conducted.)
             17 occurrences (13.5 percent)

         •    Question No. 36. Does the results of audit section provide details on
             the exit conference to include a description of the contractor’s reaction
             to the audit findings or refer to where the contractor’s reaction is
             discussed?
             17 occurrences (13.5 percent)

         •   Question No. 38. If required, does the “Contractor Organization and
             Systems” section provide information on the contractor’s organization
             and systems, or refer to a prior report or other correspondence where
             information was provided?
             16 occurrences (12.7 percent)

         •   Question No. 40. Are the appropriate restrictions on release of the
             audit report and any attachments included on the “Audit Report
             Distribution and Restrictions” page?
             16 occurrences (12.7 percent)

     DCAA determined that they did not need to propose corrective action to reduce
     future occurrences of cited noncompliances because the regions and the FAOs
     were already required to meet the strategic plan objective of, “By calendar year
     1999, 2000, and 2001, improve audit report quality by increasing ‘zero error’
                                        21
    audit reports to 75%, 85%, and 95% respectively.” For calendar year 1999,
    DCAA determined that the “zero error” rate was 73.4 percent and for calendar
    year 2000 the rate was 80.6 percent. However, for the 126 forward pricing
    reports reviewed, DCAA found that 34 (27.0 percent) reports had zero errors.

    Supervision. DCAA identified issues related to the supervision of assignments,
    but determined that no corrective action was needed because a process was
    being established to ensure that corrective action took place. DCAA found that
    most of the audits with significant problems (technical/compliance related or
    unjustified hours or rework) lacked the minimum documentation indicating
    supervisory involvement. Specifically, DCAA found that supervisors were not
    signing (approving) risk assessments and audit program steps prior to the
    performance of the audit steps and were not signing (approving) summary
    working papers prior to issuance of the audit report. In addition, DCAA found
    instances where working paper files were not put together, audit programs or
    key elements were missing from the working papers, or the working papers did
    not support the number of hours expended on the audit or the type of report
    issued. DCAA anticipated that the new supervisory documentation requirements
    resulting from implementation of the Audit Planning and Performance System
    (APPS) would resolve those issues. APPS is an automated working paper
    package that includes standard audit programs and standard report formats for
    various types of assignments. In addition, DCAA required that the regions and
    Field Detachment place renewed management emphasis and attention on
    supervision.



Corrective Actions Completed
    Risk Assessments. DCAA identified an issue related to preparing adequate risk
    assessments and took corrective action. Specifically, DCAA determined that
    auditors preparing risk assessments for forward pricing assignments did not
    always:
        •   set control risk properly or link it to the level of substantive testing
            performed,

        •   determine how prior findings would impact the current audit,

        •   consider the materiality of a proposal in total and by cost element, or

        •   consider the proposal type and how it would affect the audit scope.

    To resolve those issues, DCAA developed a revised format for risk assessments,
    released in April 2000, and a presentation package on preparing adequate risk
    assessments for price proposals. In addition, DCAA revised the standard audit
    programs by adding preliminary audit steps to complete a risk assessment and to
    coordinate with contracting officers to ensure an understanding of the audit
    request. Also, DCAA presented briefings on the new risk assessment format in
    May 2000 and provided training sessions beginning in September through
                                        22
    November 2000. Initially, DCAA was requiring the RQAs to assess the
    effectiveness and adequacy of the revised risk assessments and to present the
    results at the June 2001 ESC meeting. However, at the December 2000 ESC
    meeting, DCAA extended the deadline to the September 2001 ESC meeting.

    Setting Up Audit Assignments. DCAA identified an issue related to setting up
    audit assignments and took corrective action. Specifically, when receiving
    conflicting requests involving the audit or review of a proposal or an element of
    a proposal, the auditors did not contact the procurement officials to clarify the
    extent of audit work needed before setting up the assignments. As a result,
    assignments were established and work was performed that may not have met
    the needs of the procurement officials. In the December 1999 briefing to the
    ESC, DCAA proposed corrective action of establishing a team to research audit
    assignment issues and to provide clarifying guidance by April 14, 2000. On
    March 8, 2001, DCAA issued DCAA MRD 01-PPD-020(R), “Clarification of
    Guidance on Coordination of PCO [procuring contracting officer] Request for
    Field Pricing Support,” which provided supplemental explanation of guidance in
    the CAM.



Corrective Action Completed but Potential for Improvement
  Exists
    DCAA identified an issue related to the delegation of authority to sign audit
    reports and took corrective action. DCAA Regulation 5600.1, “Delegation of
    Signature Authority,” November 27, 1995, authorized an FAO manager or
    resident auditor to redelegate the authority to sign any type of audit report, no
    matter how sensitive, to the supervisory auditor. DCAA found that regional
    audit managers and FAO managers were routinely delegating the authority to
    sign the more significant and sensitive reports to supervisory auditors. To
    correct that deficiency, DCAA issued a revised DCAA Regulation 5600.1,
    “Delegation of Signature Authority for Audit Reports and Other Audit Related
    Documents,” June 28, 2000. Under the revised regulation, the FAO manager is
    not authorized to delegate authority to sign reports for various type of audits
    including:

        •   forward pricing audits when total dollars examined is $100 million or
            more or costs questioned are $1 million or more or exceed 10 percent of
            the dollars examined;

        •   incurred cost audits when the total dollars examined are $80 million or
            more or when costs questioned are $1 million or more or exceed
            5 percent of the dollars examined;

        •   internal control audits with system opinion of inadequate or inadequate
            in part;

        •   operations audits with recommended cost avoidance;
                                       23
             •    restructuring rate proposal audits;

             •    terminations or other claims; and

             •    audits pertaining to sensitive, controversial, complex, unusual, or
                  significant matters.

        The revised regulation corrected the identified issue. However, the revised
        regulation did not correct another previously existing deficiency. The revised
        regulation, like the previous version, allows a supervisory auditor, as acting
        FAO manager, to sign his own audit reports on issues listed above. That
        management control deficiency occurs because the revised regulation continues
        to grant acting FAO managers the same signature authority as FAO managers
        without that authority being considered a redelegation. Therefore, audits that
        DCAA determined to be significant or sensitive and subject to review by the
        FAO manager are not being reviewed by someone independent of the
        supervisory auditor when that supervisory auditor is the acting FAO manager.
        An independent review of audit reports provides a needed quality control over
        the audit logic and helps ensure the integrity of the audit reports. As a result of
        supervisors signing their own audit reports without an independent review when
        acting as FAO manager, the risk of sensitive or significant audit reports being
        issued with errors is increased in comparison to when such reports are issued
        after an independent or FAO manager review.



Corrective Actions Initiated
        Documenting Reliance on Data From Computer-Based Systems. DCAA
        identified an issue related to properly documenting reliance on data from
        computer-based systems and has established an action item for the corrective
        action. Specifically, DCAA found that auditors reviewing price proposals from
        nonmajor11 contractors did not obtain adequate evidence about the reliability of
        data from computer-based systems or did not document that they had obtained
        any evidence, and were not specifically required by DCAA guidance to do so.
        In the December 1999 briefing to the ESC, DCAA proposed corrective action
        for determining if and how DCAA guidance should be modified to suit the type
        of audits they perform and to issue clarifying guidance as appropriate by
        April 14, 2000. The ESC approved the proposed corrective action and
        established action item E99-12-13. However, as of September 2001, no
        clarifying guidance has been presented to the ESC or issued. The issue that
        DCAA identified during its internal quality assurance review and the corrective
        action proposed will not fully correct the issue found during our external
        review. See Finding C for a discussion of this issue.


11
 A nonmajor contractor is a contractor where DCAA has less than $80 million of contractor costs to
 audit in one fiscal year. The cognizant DCAA office can decide, based on the significance of an
 internal control system, whether to perform an internal control system review of a nonmajor contractor.

                                                  24
   Audit Execution Issues at the Regional and Field Detachment Level. DCAA
   identified areas for improvement for which the regions and Field Detachment
   managers were required to submit corrective action plans. The corrective action
   plans have been submitted but have not yet been fully implemented.
   Specifically, DCAA identified the following issues in addition to supervision
   discussed above.

           Auditor Support of Cost Realism Exercises. The auditors were not
   coordinating with the cognizant procurement liaison auditors when customers
   insisted on full audits for clear cost realism exercises.

          Need for Technical Specialist Assistance. Some auditors and
   supervisory auditors were not following the policy to end routine/automatic
   requests for technical assistance.

           Understanding Internal Controls and Documentation Thereof. Some
   FAOs did not have an internal control questionnaire or Internal Control Audit
   Planning Summary (ICAPS) forms that were reasonably complete or up to date.
   In addition, individual assignment working papers did not contain appropriate
   references or use of internal control questionnaires or ICAPS.

          Redelegation of Signature Authority. Some supervisory auditors did
   not comply with regional and FAO redelegation of signature authority.

   To resolve the issues, at the December 1999 ESC meeting DCAA established
   Action Item E99-12-14 that required the regional and Field Detachment
   management to analyze region results and to develop action plans by April 30,
   2000. All of the action plans were submitted to the Director, DCAA, before
   April 30, 2000. At the March 2001 ESC meeting, DCAA established a
   milestone to “Implement previously established regional action plans resulting
   from improvement areas identified by FY 1999 PCIE-based reviews” by
   May 2001. In addition, DCAA established a milestone to “Brief ESC on status
   of progress on previously established regional action plans resulting from
   improvement areas identified by FY 1999 PCIE-based reviews” in
   December 2001.



Summary
   The review of forward pricing assignments was the first DCAA internal quality
   assurance review. As such, DCAA did a credible job identifying several
   significant areas for improvement that required corrective action. However,
   DCAA has not implemented all of the proposed corrective actions. To
   maximize the potential for improvements from internal quality assurance
   reviews, DCAA should implement the corrective actions proposed by the
   headquarters Quality Assurance Division and approved by the ESC in a timely
   manner.


                                      25
Recommendations, Management Comments, and Evaluation
  Response
    B. We recommend that the Director, Defense Contract Audit Agency:

            1. Revise Defense Contract Audit Agency Regulation 5600.1,
    “Delegation of Signature Authority for Audit Reports and Other Audit
    Related Documents,” June 28, 2000, so that supervisory auditors, acting as
    field audit office managers, cannot sign reports on audit assignments they
    supervised.

    Management Comments. DCAA nonconcurred. Revising the policy to
    preclude an acting FAO manager from signing his or her own reports when
    required by the circumstances would further complicate an already complex
    policy without significant benefit. In addition, DCAA stated that only the most
    qualified supervisors should be designated to act as FAO managers and that less
    qualified supervisors should not be given the final authority to sign audit reports
    simply because they had no involvement with a particular audit. Also, DCAA
    stated that if data from future reviews indicate significantly more errors
    associated with reports signed out by acting FAO managers, DCAA will
    appropriately revisit its signature authorization policy.

    Evaluation Response. DCAA misunderstands the nature of the management
    control weakness that we identified. A signature on an audit report is an
    indication that the report was reviewed by someone other than the supervisory
    auditor. Requiring the independent review of audit reports deemed sensitive by
    DCAA management is an extremely important management control procedure
    and will, in turn, assist DCAA in meeting its strategic plan goal of increasing
    the “zero error” rate for audit reports.

    General Accounting Office Guide GAO/OP-4.1.6 states that an independent
    verification of the evidence supporting the product and review of the product
    can help ensure quality. Independent verification of the evidence, also known as
    referencing, is done by a person who is independent, objective, and experienced
    to verify whether facts and figures are correctly reported and that findings are
    adequately supported by the facts in the working papers. A product review
    helps ensure that higher level managers are satisfied with the overall quality of
    the product and that the message is sound, addresses the objectives, meets the
    customer’s needs, and is consistent with results in previous reports. However,
    DCAA does not require any region or FAO to perform a reference review of
    any audit report. In addition, DCAA does not require that every report be
    subject to a product review. DCAA has, however, granted the regions and
    FAOs the authority to conduct peer reviews of specific types of reports if
    desired. Therefore, review and signature by someone other than the audit
    supervisor is critical to ensure a quality product.

    Finally, we do not consider the revised policy to be overly complex or difficult
    to implement. Our recommendation does not specify what alternative
    procedures DCAA should use in these circumstances. Formally designating

                                        26
        more than one acting FAO manager for report signing purposes is only one
        possibility. Unless an independent peer review is performed, a signature on an
        audit report by someone other than the supervisory auditor is the minimum
        indication of a product review, and, therefore an indication that the report meets
        the GAS standards for quality. We request that DCAA reconsider its position
        and provide comments to the final report.

              2. Issue the clarifying guidance for documenting reliance on data
        from computer-based systems.

        Management Comments. DCAA concurred, stating that they would issue new
        guidance on when and how DCAA audits of nonmajor contractors should obtain
        and appropriately document adequate evidence on the reliability of the
        contractor’s computer-based data by November 30, 2001.12




12
 DCAA established April 14, 2000, as the initial milestone date for issuing this guidance. However, at
 the December 2000 ESC meeting, DCAA revised the milestone date to January 31, 2001. At the
 March 2001 ESC meeting, DCAA revised the milestone date to May 31, 2001. In the DCAA
 comments to a draft of this report, DCAA stated that they planned to issue the guidance by
 September 30, 2001. However, at the September 2001 ESC meeting, DCAA again revised the
 milestone date to November 30, 2001.
                                                  27
           C. Implementation of the Internal
              Quality Assurance Review of
              Forward Pricing Assignments
           DCAA primarily used the DCAA Checklist, FAO exit conference notes
           and trip reports to document its internal quality assurance review of the
           individual forward pricing assignments. However, the documents
           generated by the quality assurance staff did not completely explain the
           work performed or fully document conclusions reached. In addition,
           DCAA did not fully evaluate whether the reviewed audits met certain
           auditing standards. DCAA maintained limited documentation because
           management determined that only exceptions needed supporting
           documentation or explanations. The use of poorly worded checklist
           questions; ill-defined criteria for evaluating audit work; and incomplete
           guidance for assessing noncompliances, illegal acts, and other
           irregularities impacted the complete evaluation of certain auditing
           standards. DCAA needs to take corrective action on the internal quality
           assurance reviews so an external reviewer can place maximum reliance
           on the DCAA work when conducting oversight reviews. If DCAA
           adequately documents the internal quality assurance reviews, the external
           reviewers may use the results as direct evidence to support its overall
           opinion of the internal quality assurance program.



Documentation of the Quality Assurance Reviews
    DCAA needs to improve its documentation of work performed when conducting
    internal quality assurance reviews. The DCAA quality assurance staff
    documented the results of the internal quality assurance review by completing a
    DCAA Checklist for each of the 126 assignments reviewed and writing exit
    conference notes and a trip report summarizing the results of the review for
    each of the 18 FAOs visited (7 assignments per FAO). As supporting
    documentation, the quality assurance reviewers obtained a copy of the audit
    report issued for each reviewed assignment, except for the four classified
    reports, and copies of working papers that the reviewer decided were needed.
    The working papers that the reviewers copied varied from none of the audit file
    to most of the audit file depending on how the reviewer completed the DCAA
    Checklist. DCAA generally maintained limited documentation because
    management determined that only exceptions to DCAA Checklist questions
    needed supporting documentation or explanations.

    DCAA used the PCIE Guide as the primary framework for conducting its
    internal review and believed that this was the most critical factor for ensuring
    that an external reviewer could place maximum reliance on the results. The
    PCIE Guide requires that:


                                        28
          Competent evidential matter should be gathered. . . . Working papers
          should be prepared to document the work performed and the
          conclusions reached during the review. . . . The review team should
          exercise due professional care and sound professional judgment in all
          matters relating to planning, performing, and reporting the results.

The quality assurance documentation and supporting FAO working papers used
by the quality assurance staff did not sufficiently document the work performed
or all the conclusions reached during the review. To complete our evaluation of
the internal quality assurance review of forward pricing assignments, we had to
spend considerable time discussing each completed DCAA Checklist that we
reviewed with the quality assurance staff. For some assignments, we had to
discuss the audit with the FAO to complete the checklist questions. The
adequacy of the internal quality assurance review documentation directly affects
the extent to which an external reviewer can rely on the DCAA quality
assurance program.

Documentation Supporting the DCAA Checklists. DCAA did not maintain
sufficient documentation to support its conclusions on the DCAA Checklists.
When planning the review, DCAA decided to obtain supporting documentation
for only “no” answers to DCAA Checklist questions because “no” answers
indicate a deficiency. The DCAA Checklist also contains a column for
comments to each question; however, the reviewers did not always make
comments. Without the comments, we were unable to evaluate the reviewer’s
rationale for their responses without retesting and drawing our own conclusions.
For 6 of the 21 DCAA Checklists that we retested, the DCAA quality assurance
reviewers had adequately cross-referenced to applicable FAO working papers or
provided appropriate notes in the comment column. We were generally able to
use the information provided on the 6 checklists to understand reviewer
rationale for conclusions. DCAA explained that, if the quality assurance
reviewers were required to meaningfully document all of the “yes” answers,
then DCAA would have to “significantly cut back on the number of audits
reviewed.” According to DCAA, “the fewer audits reviewed, the less
meaningful the results and the less likely existing problems/noncompliances will
be accurately identified and satisfactorily addressed.”

When evaluating the adequacy of an internal quality assurance review, the
external reviewer has to consider responses to all questions no matter whether
the answer is “no,” “yes,” or “not applicable.” DCAA stated that because of
the general nature of many of the checklist questions, “providing genuinely
useful and meaningful (i.e. substance over form) documentation for the ‘yes’
responses would be very time consuming.” In addition, DCAA believes that
“many of the key questions cannot be dealt with simply by reviewing and
referencing a single working paper or working paper section.” The PCIE Guide
recommends that competent evidential matter be gathered and, where
applicable, sufficient testing be accomplished to determine whether the
organization is in compliance with applicable auditing standards, policies, and
procedures. Evidence includes documentation for “yes” answers. The
documentation for “yes” and “not applicable” answers would not be as
extensive as the documentation for “no” answers. The documentation could
consist of brief notes in the comments section of the DCAA Checklist or a
                                      29
     predetermined set of criteria for a “yes” answer. In addition, tailoring the
     questions to more specifically address the way DCAA operates would help
     improve documentation and reduce the time needed to document reviewer
     conclusions. Additional documentation should not negatively impact the number
     of FAOs or assignments reviewed. Documentation is the key for an external
     reviewer being able to rely on DCAA work.

     Cross-Referencing the Internal Quality Assurance Review Reports. DCAA
     wrote a trip report in the form of a Memorandum For Record for each of the
     18 reviewed FAOs. The trip report summarized the major findings of the
     internal quality assurance review at that FAO and included an enclosure that
     summarized the DCAA Checklist answers by reviewed assignment. The major
     conditions discussed referenced the applicable reviewed assignment and the
     DCAA Checklist question, if pertinent. DCAA was not required to, and did
     not, cross-reference the 18 trip reports to the supporting quality assurance
     documents. Cross-referencing the trip report to the actual quality assurance
     documents would establish an audit trail showing that all facts in the trip report
     are supported by the quality assurance documents. Cross-referencing the report
     to the actual supporting working papers is a generally accepted practice. In
     fact, CAM 4-403(i)(3) provides guidance on cross-referencing that includes the
     requirement to cross-reference the summary results and notes in a DCAA draft
     report to the DCAA summary and lead working papers.

     External Reviewer Reliance on DCAA Internal Quality Assurance Review
     Documentation. The DCAA working papers that support its internal quality
     assurance reviews must contain sufficient evidence to support each auditor
     conclusion for an external reviewer to place maximum reliance on the work.
     Although DCAA is not required to follow the CAM when conducting internal
     quality assurance reviews, proper cross-referencing would facilitate identifying
     supporting documentation for significant auditor conclusions. Because of
     inadequate comments, cross-referencing, and documentation we did not rely on
     the working papers when conducting our review. We retested the validity of the
     results of the DCAA internal quality assurance review of forward pricing
     assignments by judgmentally selecting three FAOs and evaluating the same
     seven assignments at each FAO that DCAA initially reviewed using the DCAA
     Checklist. Better documentation will allow the external reviewer to rely to a
     greater extent on the DCAA results. That reliance, in turn, will reduce the staff
     time that both agencies will have to expend on the reviews.



Assessment of Internal Quality Assurance Review Results for
  Forward Pricing Assignments
     DCAA used the questions from the PCIE Checklist as the starting point for
     formulating the DCAA Checklist. DCAA revised 24 of the PCIE Checklist F
     questions because those questions did not specifically pertain to the DCAA audit
     environment. Of the 24 revised questions, DCAA significantly changed 5.
     DCAA used the DCAA Checklist questions to evaluate whether the selected

                                         30
audit assignments met the auditing standards and complied with agency policy
and procedures. The DCAA Checklist, dated July 9, 1999, contained eight
sections that roughly equate to the various GAS. In total, the DCAA Checklist
had 49 questions. Of the 49 questions, we identified 8 that, as implemented,
impacted the complete evaluation of certain auditing standards. That situation
occurred because of the use of poorly worded checklist questions; ill-defined
criteria for evaluating the evidence of audit work; and incomplete guidance for
assessing noncompliances, illegal acts, and other irregularities. The eight
questions need revision to ensure that DCAA properly assesses whether an audit
met that particular auditing standard. In addition, by tailoring the questions to
evaluate compliance with standards based on the way DCAA operates, DCAA
should be able to more efficiently document its conclusions. The questions
needing improvement are quality control (one question); due professional care
(two questions); data from computer-based systems (one question); internal
controls (two questions); and noncompliances, illegal acts, and other
irregularities (two questions). The question on quality control is addressed in
Finding A, and DCAA has already revised the checklist question. In addition,
we determined that one question relating to report cross-referencing on the
Audit Report Checklist and the related CAM guidance need revision.

Due Professional Care. When DCAA evaluated compliance with due
professional care, DCAA used questions 1.1 and 1.2 from PCIE Checklist F
without adapting them for the way DCAA operates.
           1.1 Did the auditors follow proper procedures when determining that
           an applicable government auditing standard was not to be followed?

           1.2 Did the auditors adequately document the determination that
           certain government auditing standards did not apply?

Those two questions only partially address whether auditors met the due
professional care standard as defined by GAS. Proper consideration of whether
due professional care was exercised is required to adequately perform an
internal quality assurance review. Due professional care, according to GAS,
means using sound judgment in establishing the scope, selecting the
methodology, and choosing the tests and procedures for the audit.

DCAA generally agreed that the questions from the DCAA Checklist do not
adequately address compliance with due professional care. In addition, we
agree with DCAA that the questions should be answered after a complete review
of the audit file and after all other questions are answered. Therefore, an
additional enhancement to the DCAA Checklist format would be to put
questions on due professional care at the end of the DCAA Checklist. At the
exit conference for this review held on March 6, 2001, DCAA agreed to use the
following revised wording, “Did the auditors exercise due professional care in
performing the audit?” On the March 12, 2001, version of the DCAA
Checklist, DCAA eliminated question 1.2 and adopted the wording above for
question 1.1. DCAA made that change midway through its review of incurred
cost audits (the third review). We recognize that DCAA reviewers applying the
due professional care standard have a wide variety of knowledge and audit
experience; therefore, to assist the reviewers in consistently applying the due
                                      31
professional care standard, DCAA should provide criteria so that variations in
applying auditor judgment when answering this question, because of the
individual auditor’s experience and expectations, can be minimized.

Reliability of Data from Computer-Based Systems. DCAA adapted the
following question from PCIE Checklist F and used it to evaluate compliance
with GAS 6.62 on reliability of data from computer-based systems.
           5.3 If the data from computer-based systems was significant to
           drawing audit conclusions, did the auditor obtain evidence about the
           reliability of the data by either (a) determining that the validity of the
           data was established in other DCAA audits or by other auditors, or
           (b) directly testing the data. (The level of direct testing may be
           reduced by testing the effectiveness of general and application
           controls in the computer-based systems.)

        Applicable Auditing Standards. GAS 6.62 requires that evidence
supporting the reliability of data be obtained. The auditor can either perform
the audit work to verify the reliability of the data or the auditor can rely on
work performed in other audit assignments. GAS 6.62 specifically addresses
the level of documentation needed when the reliability of data from
computer-based systems is and is not a significant element of the finding.
           Auditors should obtain sufficient, competent, and relevant evidence
           that computer-processed data are valid and reliable when those data
           are significant to the auditors’ findings. This work is necessary
           regardless of whether the data are provided to auditors or auditors
           independently extract them. . . . When computer-processed data are
           used by the auditors, or included in the report, for background or
           informational purposes, and are not significant to the auditors’
           findings, citing the sources of the data and stating that they were not
           verified will satisfy the reporting standards for accuracy and
           completeness.

In addition, GAS requires that working papers contain sufficient information so
that an experienced auditor having no prior connection to the audit can
determine from the working papers the evidence that supports the auditor’s
significant conclusions and judgments. We consider how the auditor complied
with GAS 6.62 to be significant. Therefore, if the auditor relied on data not
contained in the audit file for the assignment under review, the working paper
reference must be specific enough for a reviewer to find the information.

        How DCAA Answered the Question. According to the DCAA briefing
charts, “December 2000 ESC Briefing on DoDIG Evaluation of FY 1999 QA
[quality assurance] Review Effort,” DCAA answered “yes” to question 5.3,
“if evidence was found in FAO permanent files that EDP [electronic data
processing] controls were tested (even if not documented in WPs [working
papers]).”

        DCAA Review Results. DCAA concluded that the auditors adequately
documented evidence of the reliability of data from computer-based systems on
65 (51.6 percent) of the 126 assignments. In addition, DCAA determined that
for 17 (13.5 percent) of the audits reviewed that standard was not applicable.

                                         32
For the 21 audits we test checked, DCAA answered “no” to question 5.3 in
7 (33.3 percent) cases; “yes” in 12 (57.2 percent) cases; and “not applicable” in
2 (9.5 percent) cases.

        External Review Results. We answered “no” to question 5.3 for
16 (76.2 percent) of the 21 audits we retested. In addition, we determined that
“not applicable” only applied to one (4.8 percent) audit. We answered “no”
more frequently than DCAA because if another audit or permanent file was not
properly referenced in the reviewed audit files, we did not assume that the
auditor knew that this review had been performed. In addition, if the auditor
did not document why, or it was not obvious why, the computer-process data
was not significant to the auditor’s findings, we answered “no.”

        Conclusions on External Review of Reliability of Computer-
Processed Data. By applying its criteria, DCAA did not assess whether the
auditor performing the reviewed audit had obtained the required evidence about
computer-processed data. Instead, DCAA assessed whether the FAO had
performed certain information system reviews. Therefore, DCAA did not
adequately apply the criteria in GAS 6.62 to determine whether the auditor
obtained sufficient, competent, and relevant evidence that computer-processed
data are valid and reliable. DCAA generally evaluates contractor internal
control systems, including general and application controls for information
systems, as separate audits when the internal control system is significant to the
contractor’s operations. The audit work evaluating the reliability of
computer-processed data would be documented in a separate audit file or
permanent file maintained on that contractor. In that case, relying on the other
audit to satisfy the requirements of GAS 6.62 requires proper referencing of the
other work in the audit assignment. During performance of quality assurance
reviews, audit files must provide all of the needed information so the audit files
can stand on their own.
       Improvement Suggested. To improve the assessment of compliance
with GAS 6.62, DCAA needs to revise question 5.3 to make it a multipart
question. The revision should ask whether the quality assurance reviewer
determined whether:

    •   the auditor properly determined if computer-processed data was
        significant to his audit conclusions, and

    •   the auditor appropriately documented that determination (significant or
        not significant).

If the auditor determined that computer-processed data was significant to the
audit conclusions, then the quality assurance reviewer must determine whether:

    •   any auditor in the FAO conducted the appropriate audit work to
        determine the reliability and validity of computer-processed data, and



                                    33
    •   the auditor on the forward pricing assignment being reviewed properly
        documented the work performed by other auditors in the working
        papers.

If the auditor determined that computer-processed data was significant to the
audit conclusions and no auditor in the FAO conducted the appropriate audit
work to determine the reliability and validity of computer-processed data, then
the quality assurance reviewer must determine whether the auditor on the
forward pricing assignment being reviewed:

    •   adequately performed audit work during the forward pricing review to
        verify computer-processed data, and

    •   appropriately documented that work, if performed.
Using the multipart question should allow DCAA to quickly document the
assessment of compliance with GAS 6.62. Once a complete assessment is
performed, determining what corrective action, if any, is needed and how to
implement the action will be much easier for DCAA.

Understanding Internal Controls. DCAA adapted the following two questions
from PCIE Checklist E and used them to evaluate compliance with GAS 4.21
and 4.37 relating to understanding internal controls.
           6.1 Did the auditors obtain an understanding of the internal controls
           sufficient to plan the audit by performing procedures to understand
           the design of controls relevant to the audit and whether they have
           been placed in operations?
           6.2 Did the auditors appropriately document their understanding of
           the internal control components obtained to plan the audit?

        Auditing Standards and Audit Guidance. Understanding internal
controls, according to GAS 4.21, means obtaining a sufficient understanding of
internal controls to plan the audit and determine the nature, timing, and extent
of tests to be performed. In addition, GAS 4.37 requires that working papers
provide written evidence supporting the auditor’s significant conclusions and
judgments. CAM 5-106 states that the first step in reviewing and evaluating a
contractor’s internal controls is to obtain an understanding of the accounting and
management systems being reviewed. CAM 5-106 also emphasizes the
requirement that the auditor’s understanding be documented.
           Once the auditor has gained an adequate understanding of the
           contractor’s accounting and management systems, that understanding
           should be documented in the audit working papers and related
           permanent files. This documentation will typically take the form of
           system flowcharts, narrative descriptions, and copies of relevant
           documents and reports.       The method(s) used and extent of
           documentation required are a matter of professional judgment.
           However, the documentation should provide sufficient information to
           communicate the auditor’s understanding in a clear and summarized
           manner.


                                       34
                Criteria Used by DCAA. When answering question 6.1 for audits of
        major contractors,13 DCAA concluded the auditor had obtained an understanding
        of internal controls when the FAO had completed current Internal Control Audit
        Planning Summary (ICAPS) forms. For audits of nonmajor contractors, DCAA
        answered “yes” to question 6.1 when the FAO had an up to date completed
        Survey of Contractor’s Organization, Accounting System, and System of
        Internal Controls (SHORTICQ). DCAA used those forms to obtain an
        understanding of a contractor’s internal controls and to assess control risk. For
        question 6.1 to be answered “yes,” the auditor did not have to include or
        reference the appropriate form(s) in the audit file. The form(s) had only to be
        available somewhere in the FAO files. For question 6.2 to be answered “yes,”
        the auditor had to include or reference the appropriate form(s) in the audit
        assignment file.

               Results of DCAA Review. DCAA determined that the auditors for
        108 (85.7 percent) of the 126 assignments obtained an understanding of the
        contractor’s internal controls for question 6.1. However, for question 6.2,
        DCAA determined that the auditor appropriately documented that understanding
        for only 74 (58.7 percent) of the 126 assignments. For the 21 audits that we test
        checked, DCAA answered question 6.1 “yes” in 14 (66.6 percent) cases and
        answered question 6.2 “yes” in 9 (42.9 percent) cases, a difference of 5 cases.

               Results of External Review. We answered “no” to question 6.1 and
        question 6.2 for 14 (66.6 percent) of the 21 audits we retested. We answered
        “no” for both questions if the auditor did not include or reference the
        appropriate internal control forms in the audit file or provide some other
        information indicating a knowledge of the contractor’s internal controls. The
        only way to determine whether the auditor performing the audit had obtained an
        understanding as required was through documentation that existed in the audit
        file. Therefore, independent of any retesting, we concluded that DCAA
        improperly assessed the auditor’s compliance for 34 (27.0 percent) of the
        126 assignments where DCAA answered question 6.1 “yes” and question 6.2
        “no.” Of the 21 assignments that we retested, we identified 3 audits where
        DCAA improperly applied its own criteria.

               For the first audit, the DCAA reviewer answered both questions “no”
        and noted in the comment column, “No documentation in the workpaper file.
        Estimating system and ICAP[S] reviews have been performed.” Based on the
        comment and the DCAA criteria, question 6.1 should have been answered “yes”
        and question 6.2 should have been answered “no.”

               For the second audit, the DCAA reviewer incorrectly answered
        question 6.1 “yes” based on the standard appendix to the audit report on the
        contractor’s organization and systems. The reviewer answered question 6.2
        “no” commenting, “Assessment of control risk not documented in the audit file,
        see 3.1.e above.” The information presented in the audit report was not
        included in the audit file.

13
 A major contractor is a contractor where DCAA has $80 million or more of contractor costs to audit in
 one fiscal year.
                                                  35
                For the third audit, the DCAA reviewer answered both questions “no;”
        however, information in the audit assignment file clearly indicated that the
        auditor had obtained information about the contractor’s internal controls. The
        auditor noted in the risk assessment that estimating and accounting system
        reviews had been performed with no deficiencies identified but the SHORTICQ
        was incomplete and outdated. For this audit, the auditor gathered the existing
        information on the most applicable internal control systems and properly
        documented the overall status of the internal control assessment. The FAO was
        deficient in properly completing the required SHORTICQ.

                Conclusion on External Review of Internal Controls. DCAA did not
        adequately apply the criteria in GAS and CAM when assessing whether the
        auditor performing the reviewed audit had obtained an understanding of internal
        controls. Instead, DCAA assessed whether any auditors at the FAO had
        obtained such an understanding. DCAA uses internal control system reviews14
        of a major contractor as the basis for all other audit work at a major contractor.
        DCAA uses the information on the SHORTICQ for a nonmajor contractor as the
        basis for all other audit work at a nonmajor contractor. Therefore, it is
        important that quality assurance reviewers assess the understanding of internal
        controls for both the FAO (whether internal control system reviews have been
        performed or SHORTICQs completed) and the auditor actually performing the
        audit being reviewed (knowledge of the results of completed system reviews or
        SHORTICQs and the effect on the current assignment).

        In an effort to improve the assessment of understanding internal controls,
        DCAA combined the two questions into one new question on the March 12,
        2001, revision to the DCAA Checklist. The new question asks:
                     6.1 For other than internal control audits, did the auditors: obtain
                     and document an understanding of the applicable significant internal
                     controls by performing procedures to understand the design of
                     controls relevant to the audit and whether they have been placed in
                     operation?

        The revised question does not resolve our concerns. To fully evaluate
        compliance with GAS and CAM, FAO and individual auditor compliance must
        be assessed. The revised question requires one overall assessment of FAO and
        the auditor knowledge. In addition, whether either FAO or auditor compliance
        is properly documented in the appropriate audit file is another factor that should
        be evaluated separately. Therefore, revised question 6.1 could make the
        assessment of compliance with GAS and CAM more difficult than before.

                Suggested Improvement. To improve its assessment of compliance
        with GAS 4.21, DCAA should revise the questions on internal controls to more
        specifically assess the information available at the FAO versus the knowledge
        level of the auditor performing the reviewed assignment. Specifically, the
        revised questions should assess:


14
 Internal control system reviews are performed as separate audit assignments and can be accomplished
 by different auditors or audit teams.

                                                 36
          •     what information the FAO had on internal controls,

          •     whether the FAO information was sufficiently documented,

          •     what information the auditor performing the reviewed assignment
                obtained on the internal controls, and

          •     whether the auditor sufficiently documented that information in the
                audit file.

Revising the questions to distinguish between the information available at the
FAO versus the knowledge obtained by the auditor will enhance the DCAA
quality assurance review process by clarifying the nature of the identified
deficiency. That, in turn, will allow the headquarters Quality Assurance
Division to determine the root cause for the deficiency and recommend the most
appropriate corrective action. In addition, the reviewer could more easily
document compliance with the standard and appropriately credit the FAO for
performing the required internal control reviews.

Noncompliances, Illegal Acts, and Other Irregularities. Current DCAA audit
guidance for forward pricing assignments does not require the auditor to fully
assess audit risk due to fraud or other illegal acts. Specifically, the DCAA
standard audit programs for forward pricing assignments do not include all the
audit steps needed to properly implement GAS 6.26 and GAS 6.28 or Statement
on Auditing Standards (SAS) 82, “Consideration of Fraud in a Financial
Statement Audit,” effective December 15, 1997. While SAS 82 specifically
applies to financial statement audits, DCAA MRD 98-PAS-044(R), “Audit
Guidance on SAS No. 82 ‘Considering Fraud in a Financial Statement Audit’,”
March 26, 1998, states that many of the objectives of SAS 82 are applicable to
the DCAA financial-related audits and performance audits. Forward pricing
reviews are considered financial-related audits. The MRD summarizes the
requirements of SAS 82 and discusses the impact of the standard on DCAA
audits. SAS 82 requires auditors to assess the risk of material misstatement that
are the result of fraud, and specifically, to plan and perform audits that will
obtain reasonable assurance about whether the financial statements are free of
material misstatement, whether caused by error or fraud. CAM 4-702.3
requires that:
              The auditor should specifically assess the risk of material
              misstatement due to fraud and should consider that assessment in
              designing the audit procedures to be performed. Effective audit risk
              assessments and audits of internal controls are useful procedures for
              assessing risk of fraud against the government. Proper execution of
              audit programs together with adequate tests of contractor internal
              control systems should provide reasonable assurance that significant
              fraudulent and other unlawful practices are detected.

In addition, GAS 6.26 states that for all performance audits, auditors should be
alert to situations or transactions that could be indicative of illegal acts or abuse.
GAS 6.28 also requires that:


                                          37
           Auditors should design the audit to provide reasonable assurance
           about compliance with laws and regulations that are significant to
           audit objectives. This requires determining if laws and regulations
           are significant to the audit objectives and, if they are, assessing the
           risk that significant illegal acts could occur. Based on the risk
           assessment, the auditors design and perform procedures to provide
           reasonable assurance of detecting significant illegal acts.

         Extent of DCAA Review. When performing the reviews of forward
pricing assignments, DCAA only identified a deficiency if documentation was
present in the working papers, indicating that a potential fraud or illegal act may
have occurred and the auditor did not identify it as such. In addition, DCAA
did not identify a deficiency if noncompliances were considered, even though
illegal acts were not. Without proper documentation, DCAA has no assurance
that its auditors are adequately assessing the risk of fraud or other illegal acts.
DCAA has stated that the risk of fraud is generally inherently less in pre-award
audits because fraud requires that the Government be harmed and the
Government cannot be harmed until contract award.

To improve compliance with GAS, DCAA should add audit steps:

    •   to the preliminary risk assessment that require the auditor to consider
        the risk of fraud or other illegal acts;

    •   to address situations where the potential for fraud exists and to evaluate
        its impact on the audit objectives and scope; and

    •   to document whether anything came to the auditor’s attention during the
        audit that would indicate that fraud or illegal acts occurred and that the
        auditor took appropriate action.

Including those audit steps in the standard audit programs should provide DCAA
with reasonable assurance that DCAA auditors are adequately assessing the risk
of fraud and will properly implement GAS and the intent of SAS 82. In
addition, the documentation required by the additional audit steps will allow
quality assurance reviewers to properly assess whether GAS 6.26 and 6.28 were
complied with. In comments on a discussion draft of the report, DCAA stated,
           DCAA believes its position to date has been reasonable. . . . The IG’s
           position also has merit. . . . DCAA will therefore, reconsider its
           position and review each of its forward pricing audit programs to
           determine where it might best add appropriate steps to more directly
           cover SAS 82 concerns.

Cross-Referencing Reports. The relationship between the working papers and
the audit report is addressed in GAS 6.46 and GAS 7.55. DCAA used the
following question from the Audit Report Checklist to determine whether the
audit reports were properly cross-referenced to the working paper files.
           1. Is the draft report cross referenced to the working papers?




                                        38
The DCAA quality assurance review addressed GAS 6.46 in question 5.1.a of
the DCAA Checklist.
           5.1 Do the working papers document that the auditors obtained:

                a. Sufficient, competent, and relevant evidence to support
           findings, judgments, and conclusions in the report?

Cross-referencing of a draft report to the working papers allows an external
reviewer to easily track the significant information in the report back to the
pertinent working papers.

        Pertinent Audit Guidance. GAS 7.55 states that a report should
include only information, findings, and conclusions supported by competent and
relevant evidence in the working papers. CAM 10-104.11 states, “The draft
report should always be cross referenced to the working papers. This ensures
that the audit conclusions are supported and are easily found.”
CAM 4-403(i)(3) provides guidance on the extent to which the draft report
needs to be cross-referenced to the working papers. “As a minimum, reference
the following: The summary results and notes in the draft audit report to the
summary and lead working papers.” However, the guidance is not sufficient to
ensure that all information, findings, and significant conclusions in forward
pricing assignment reports were supported by competent and relevant evidence
in the working papers. Sections of DCAA audit reports, such as scope and
qualifications, contain standard language that does not need to be
cross-referenced. Those sections can also contain information that is unique to
the assignment; however, the existing CAM guidance does not require that the
unique information in the subject, executive summary (significant issues), scope,
qualifications, or contractor organizations and systems information be
cross-referenced. Proper cross-referencing of the draft report to working papers
also helps ensure compliance with GAS 6.46, which requires that, “Sufficient,
competent, and relevant evidence is to be obtained to afford a reasonable basis
for the auditors’ findings and conclusions.” Therefore, the criteria that DCAA
used to determine the adequacy of the cross-referencing needs to be revised to
include all significant report elements.

       Results of DCAA Review on Cross-Referencing Reports. DCAA
determined that for 19 (15.1 percent) of 126 audits reviewed, the draft report
was not properly cross-referenced to the working papers in accordance with
CAM guidance. Additionally, DCAA answered “no” to question 5.1.a for 13
(10.3 percent) out of the 126 audits.

        Oversight Review Results on Cross-Referencing Reports. Using the
criteria in GAS 6.46 and GAS 7.55, we determined that 16 (76.2 percent) of the
21 audit reports were not sufficiently cross-referenced to the working papers.
Depending on the content of a report, the information that CAM does not
require to be cross-referenced may be crucial to understanding the results of the
audit. For example, at one FAO we visited, the report for an assist audit of
forward pricing bid rates contained information in the “Contractor’s
Organization and System” section about two contractors that had merged, one of
whom became business units within the other. Although the section cited
                                     39
    previous audits on six internal control systems, the report did not contain
    sufficient information to determine whether the results of the six system reviews
    applied to the pre-merger or post-merger contractors or to the business unit
    under audit. In addition, a note in the report stated that all references to the old
    contractor had been replaced with references to the new contractor. Also, none
    of the information presented was cross-referenced to the working papers;
    therefore, the reviewer had no way to assess whether the information presented
    in the report was accurate and up to date. In another case, DCAA and we noted
    that the report had not been cross-referenced to the working papers and that the
    working paper documentation was not adequate for this audit. In addition, we
    answered question 5.1.a “no.” The supervisor had changed the report findings
    and instructed the auditor to adjust the working papers accordingly. The auditor
    did not revise the working papers sufficiently so that we could track the draft
    report findings back to the working papers. Therefore, we could not determine
    the adequacy of the work performed. Complete cross-referencing of the report
    to supporting working papers and other files help ensure the factual accuracy of
    the report’s content.

            Needed Improvements. Revising the checklist question on
    cross-referencing would improve DCAA assessments of whether reviewed
    audits comply with GAS 6.46 and GAS 7.55. The checklist question and CAM
    guidance should include all of the requirements of GAS 7.55. The CAM
    revisions should also help emphasize to the audit staff the importance of proper
    report cross-referencing and ensure audit report quality.



Use of Rating System
    Ratings. DCAA established an overall FAO rating to show FAOs that an FAO
    could “pass” an internal quality assurance review. For the internal quality
    assurance review of forward pricing assignments, DCAA did not develop a
    performance goal or performance indicators. Instead, DCAA used a subjective
    rating system to describe the overall performance of its FAOs. DCAA used the
    following two ratings.

        •   High – As good as we can reasonably expect and no followup necessary

        •   Satisfactory – Corrective action plans obtained and the regions are
            required to conduct followup to ensure that plans have been effectively
            implemented

    DCAA did not develop criteria for objectively measuring FAO performance to
    assign either of the two ratings. Instead, DCAA, using the results of the DCAA
    Checklist reviews, subjectively decided which ones they felt were operating at a
    high level versus a satisfactory level. DCAA decided to rate 8 of the FAOs as
    high and 10 of the FAOs as satisfactory.



                                         40
   Performance goals should be objective, quantifiable, and measurable. In
   addition, the measurement criteria should be established prior to conducting the
   review to ensure proper implementation of the rating process. Merely
   comparing the performance of one FAO against another does not provide any
   information on whether either FAO is meeting agency performance goals and
   can result in inconsistent ratings. For example, DCAA rated one of the FAOs
   we visited as operating at a high level of compliance even though DCAA found
   that one of the seven assignments reviewed did not meet the due professional
   care standard. DCAA determined that “as good as we can reasonably expect”
   or a high level of compliance equates to one out of seven FAO audits failing to
   comply with the due professional care standard. Because of the overall
   importance of complying with this standard, at the very least a high rating
   should indicate that all reviewed assignments met that particular standard. On
   the other hand, another FAO was rated as satisfactory, even though DCAA
   found that all of the seven assignments reviewed met the due professional care
   standard. In the trip report for that FAO, DCAA addressed issues related to
   using the incorrect standard audit program and insufficient supervisory auditor
   involvement. Without establishing criteria, reviewers cannot use the rating
   system to accurately describe whether an FAO is meeting agency performance
   goals or how significant the noncompliances are in relation to the overall quality
   assurance program.

   Strategic Goal. In an effort to formalize the internal quality assurance review
   process, DCAA developed a new goal for its strategic plan that requires, “By
   FY 2002, increase the number of FAOs found to be at a ‘high level’ of
   compliance in DCAA’s PCIE reviews to 70% in the forward pricing audit
   area.” The metric DCAA plans to use for that measure is the percentage of
   FAOs at a high level of compliance as determined in the FY 2002 PCIE-based
   quality assurance reviews.
   The Government Performance and Results Act of 1993 recommends that
   performance goals be objective, quantifiable, and measurable and that
   performance indicators be used for measuring or assessing the relevant outputs,
   service levels, and outcomes of each activity. Strategic plan goals are covered
   by the Government Performance and Results Act. Therefore, if a similarly
   subjective process is used to determine if the goal is met, then the process will
   not meet the requirements of the Government Performance and Results Act. In
   addition, DCAA is still assigning an overall FAO rating based on only one type
   of assignment.



Summary
   The goal of an organization’s internal quality control system is to provide
   reasonable assurance that established policies and procedures and applicable
   auditing standards are being followed. To ensure an accurate evaluation of the
   quality of the work performed, reviewers, both internal and external, should
   independently evaluate compliance with each auditing standard when reviewing

                                       41
    working paper files. The key to adequately evaluating compliance with auditing
    standards is the use of questions and criteria that reflect the requirements of
    GAS and the audit organization’s own policies and procedures and audit
    environment. Questions tailored to assess the audit environment under review
    would allow internal and external reviewers to more efficiently document
    conclusions.

    DCAA has designed and is implementing an internal quality assurance review
    process intended to meet the goal of an external quality control review. DCAA
    stated that one of its key goals is to design and perform PCIE-based reviews in
    such a way that we could place maximum reliance on the reviews and reduce
    our oversight review effort. For DCAA to meet its goal of implementing an
    internal quality assurance program so that an external reviewer can place
    maximum reliance on its work, DCAA should design and perform internal
    quality assurance reviews that will provide more documentation of the work
    performed.



Management Comments on the Finding and Evaluation
 Response
    Summaries of management comments on the finding and our evaluation
    response are in Appendix B.



Recommendations, Management Comments, and Evaluation
  Response
    C. We recommend that the Director, Defense Contract Audit Agency:
           1. Sufficiently document all auditor conclusions when performing
    internal quality assurance reviews.

    Management Comments. DCAA nonconcurred, stating that they believe that
    providing sufficient, meaningful documentation supporting the “yes” and “not
    applicable” answers to the DCAA Checklist questions would have a significant
    impact on the number of audits that could be reviewed. DCAA is already
    committing approximately 7 staff-years to the annual performance of its internal
    quality assurance reviews and does not believe that it is prudent or appropriate
    to commit any additional resources to the internal review process at this time.
    Consequently, DCAA believes that any imposed requirement to systematically
    provide sufficient and meaningful documentation supporting “yes” and “not
    applicable” responses would result in a significant reduction in the number of
    audits reviewed. In addition, DCAA believes that its policy of only
    systematically documenting the noncompliances is in line with what other
    internal (and at least some external) reviewers do.
                                       42
Evaluation Response. We disagree with the DCAA position. DCAA has
35 auditors assigned to the headquarters Quality Assurance Division, the RQAs,
and the Field Detachment Quality Assurance Division to evaluate the work of
4,172 staff conducting 41,722 reviews. During the internal quality assurance
review of forward pricing assignments, DCAA reviewed 126 assignments.
DCAA has adopted the criteria set forth by the PCIE in the PCIE Guide. That
criteria requires that, “Working papers should be prepared to document the
work performed and the conclusions reached during the course of the review.”
In addition, the PCIE Guide states that an organization’s internal quality
assurance review should gather, “competent evidential matter . . . to determine
that the audit organization is in compliance with applicable auditing standards,
policies and procedures.” A “yes” answer indicates compliance with the
applicable standard; however, without sufficient documentation—either a note
explaining how the reviewer reached that conclusion or a reference to working
papers from the assignment file—it is not possible for others to evaluate the
sufficiency of the DCAA reviewer’s work without independent retesting.

In addition, we disagree with the contention that DCAA would have to reduce
the scope of its review if the DCAA reviewers were required to meaningfully
and sufficiently document their work. Of the 21 assignments that we retested,
the reviewers for 6 documented their “yes” and “not applicable” answers. As
the DCAA quality assurance program matures and personnel become more
familiar with the DCAA Checklist and the criteria for “yes,” “no,” and “not
applicable” answers, the time needed to completely document the review should
decrease. DCAA would benefit from fully documenting the “yes” and “not
applicable” answers because that information would increase the value of the
DCAA quality assurance organization by helping DCAA to better identify best
practices or process improvements that could be adopted throughout the agency.
Identification of such practices is a mandate of the DCAA headquarters Quality
Assurance Divisions and the RQAs. Also, DCAA stated that one of its goals
was for the Inspector General, DoD, to be able to place maximum reliance on
DCAA work. For us to do that, we need an audit trail from significant findings
and conclusions discussed in trip reports back to the working papers that support
them.

Finally, some internal reviewers may believe that documenting only “no”
answers is sufficient to satisfy an external reviewer. However, an audit
organization’s internal quality assurance program performs a different function
than an external review of an audit organization. Part of the value of an internal
review is the ability of an external reviewer to rely on the results. For the
external reviewer, an internal quality assurance reviewer conclusion that
auditing standards are met is as significant as a conclusion that standards are not
met. DoD Service audit organizations, when conducting external reviews,
documented all of the conclusions as to whether an audit met GAS. We request
that DCAA reconsider its position and provide comments to the final report.




                                    43
       2. Revise the Defense Contract Audit Agency Checklist to:

               a. Revise question 5.3 on reliability of computer-processed
data to cover the field audit office’s knowledge and documentation of the
reliability and validity of computer-processed data; the auditor’s knowledge
and documentation of computer-processed data; and the auditor’s
determination and documentation of any decision that computer-processed
data is not significant to the audit findings and conclusions as required by
Government Auditing Standard 6.62.

              b. Revise the questions in section 6 relating to internal
controls to cover the field audit office’s knowledge and documentation of
internal controls as well as the auditor’s knowledge and documentation.
Management Comments. DCAA concurred in part, stating that the DCAA
headquarters Quality Assurance Division tried to keep the DCAA Checklist
questions as close to what was in the PCIE Guide as possible. However, the
headquarters Quality Assurance Division has changed and will continue to
change the DCAA Checklist questions and adopt new ones when appropriate.
With respect to the 5.3 and section 6 questions, DCAA agreed that the questions
could be reworded to address some of the Inspector General, DoD, concerns
and increase the value and consistency of the answers. At a minimum, for
future PCIE-based quality assurance reviews, DCAA will ensure that its
reviewers sufficiently explain and/or document why they believe an auditor has
demonstrated an adequate understanding of the internal controls, but not
appropriately documented that understanding. DCAA will also further examine
the Inspector General, DoD, proposed changes relating to checklist questions
6.1.and 6.2 to ensure that the significant data that needs to be captured by these
questions is in fact captured.

Evaluation Response. The DCAA comments meet the intent of the
recommendations.

       3. Revise the standard audit programs for forward pricing
assignments to include audit steps addressing assessment of risk due to
fraud and other illegal acts.

Management Comments. DCAA concurred, stating that they will review each
of the forward pricing audit programs to determine where it might best add
appropriate audit steps or new wording to existing steps to more directly cover
SAS 82 concerns. DCAA provided draft changes to the audit programs on
November 1, 2001.

       4. Modify DCAA Manual 7640.1, “DCAA Contract Audit Manual,”
and the “Audit Report Quality Review Sheet for Audit Reports of All
Types” to require that auditors cross-reference all sections of an audit
report containing nonstandard language, including the subject, executive
summary (significant issues), scope, qualifications, and appendices to
working papers, permanent files, or other audit assignments as appropriate.


                                    44
Management Comments. DCAA concurred, stating that they would review
existing policy and appropriately modify the CAM and the Audit Report Review
Sheet by December 31, 2001.

       5. Establish criteria against which the field audit office can be rated.

Management Comments. DCAA concurred that they need to establish more
specific, written criteria for gauging the overall performance of its FAOs.




                                  45
Appendix A. Evaluation Process

Scope
    An audit organization’s internal quality assurance program is an integral part of
    its overall management control program. We based our review of the DCAA
    quality assurance program on the GAS standards relating to quality controls, the
    PCIE “Guide for Conducting External Quality Control Reviews of the Audit
    Operations of Offices of Inspector General,” DCAA strategic plan goals and
    objectives, and DCAA policies and procedures in force from June 1992 through
    March 2001. We reviewed the DCAA internal quality assurance program and
    FY 1999 internal quality assurance review of forward pricing assignments. For
    the FY 1999 review, we reviewed the FAO and assignment selection process,
    completed DCAA Checklists and supporting documentation, and all 18 trip
    reports that DCAA prepared. In addition, we visited 3 FAOs (Silicon Valley
    Branch Office in California, Lockheed Martin Orlando Resident Office in
    Florida, and Mid-South Branch Office in Colorado) to retest DCAA work and
    conclusions. Also, we discussed the internal quality assurance review process
    with DCAA officials to determine how much reliance we could place on the
    process when conducting our external quality control review. Further, we
    reviewed briefing charts presented to the ESC and meeting minutes and action
    items resulting from ESC meetings and decisions.

    Inspector General, DoD, Oversight Responsibilities. Under Section 8(c)(6),
    Title 5, U.S.C., Appendix 3, the Inspector General Act of 1978, as amended,
    the Inspector General, DoD, is responsible for monitoring and evaluating
    adherence of DoD auditors to internal audit, contract audit, and internal review
    principles, policies, and procedures. The office within the Inspector General,
    DoD, responsible for conducting independent oversight reviews of DCAA is the
    Office of the Assistant Inspector General for Auditing, Deputy Assistant
    Inspector General for Audit Policy and Oversight. As part of that
    responsibility, Audit Policy and Oversight evaluates the internal quality
    assurance reviews performed by the DCAA headquarters Quality Assurance
    Division and the RQAs. Audit Policy and Oversight uses the PCIE Guide as a
    tool when conducting oversight reviews of the internal quality assurance
    reviews.



Methodology
    To evaluate the adequacy of the DCAA internal quality assurance program, we
    reviewed DCAA policies and procedures and interviewed DCAA headquarters
    quality assurance staff to determine the procedures that have been established to
    conduct internal quality assurance reviews. To evaluate the results of the
    FY 1999 internal quality assurance review of forward pricing assignments, we
    retested DCAA working papers to determine the significant deficiencies that
                                        46
     were found, and we visited 3 (16.7 percent) of the 18 FAOs visited by DCAA
     and retested 21 (16.7 percent) of the 126 assignments reviewed by DCAA using
     the same DCAA Checklist that DCAA used when they conducted the initial
     review. We then compared our results to the DCAA results, identified
     differences, and determined why the differences occurred.

     Use of Computer-Processed Data. We did not use computer-processed data to
     perform the evaluation.

     Evaluation Dates and Standards. We conducted this evaluation from
     August 2000 through March 2001 in accordance with standards issued by the
     Inspector General, DoD. The project was suspended from May 9, 2001, to
     September 14, 2001.

     Contacts During the Evaluation. We visited or contacted individuals and
     organizations within DoD. Further details are available upon request.



Prior Coverage

Inspector General, DoD
     Report No. D-2000-6-010, “External Quality Control Review of the Defense
     Contract Audit Agency,” September 27, 2000




                                      47
Appendix B. Management Comments on the
            Findings and Evaluation Response

Finding A
    Management Comments on Independent Review of Field Detachment.
    DCAA stated that the Inspector General, DoD, statement that DCAA did not
    adequately consider the significance and unique risks associated with the Field
    Detachment audit work in setting up its quality assurance program are
    inaccurate in that they ignore one key fact. That one key fact is, although the
    Field Detachment has less than half the staff and workload of the average
    DCAA region, the Field Detachment Quality Assurance Division has the same
    number of staff as each RQA to cover the work. In other words, the Field
    Detachment Quality Assurance Division has twice the staff to offset and deal
    with the unique Field Detachment risk factors.

    Evaluation Response on Independent Review of Field Detachment. We
    disagree with the DCAA position. While having double the staff might offset
    some of the unique Field Detachment risk factors for regionally directed
    reviews, having double the staff does not lessen the impact of the lack of
    independence. If the staff is not independent, then the size of the staff does not
    matter. The reviewers are not independent when conducting the DCAA
    headquarters-led quality assurance reviews.

    Management Comments on Required Clearances of Inspector General,
    DoD, Personnel. DCAA contends that the Inspector General, DoD, statement
    that its non-cleared reviewers can systematically review unclassified Field
    Detachment audit assignments is not valid. DCAA disagrees that the Inspector
    General, DoD, reviewers could be systematically accommodated to routinely
    gain unrestricted access to DCAA audit working papers even when the working
    papers and audit assignments themselves are not classified. Such action would
    significantly and unacceptably increase the risk of security violations and
    indicates a misunderstanding of procedures for operating in a classified
    environment. Typically, a mixture of classified and unclassified information is
    present within the same program. An individual must have the appropriate
    “investigation” and be granted the proper “clearance” to be given “access” to
    the program. Jobs exist that require investigation/clearance eligibility based
    solely on the “nature” of the work, and not because the job requires handling of
    classified information. The nature of the audits conducted by the Field
    Detachment requires that they be performed in a sensitive compartment
    information facility (SCIF). Access to the SCIF is limited to individuals having
    the proper clearances.

    Evaluation Response on Required Clearances of Inspector General, DoD,
    Personnel. We did not say or intend that uncleared personnel should be
    systematically accommodated to routinely gain unrestricted access to the DCAA
    audit working papers. The Inspector General, DoD, reviewers that visited the

                                        48
Field Detachment FAO to review the seven forward pricing assignments had the
appropriate security clearances to gain access to the SCIF and to review the
requested audit assignment files. The reviewers did not request to review files
for which they were not cleared.

Management Comments on Classification Level of Documentation. DCAA
stated that, although reviewers work with classified documents, the reviewers
avoid including classified information in their working papers, to the maximum
extent practicable. Thus, while frequently the working papers are not classified,
they typically contain highly sensitive information, such as contractor names,
contract numbers, contract amounts, customer names, or organizations.
Individually, such data is not classified; however, when certain information is
combined with certain other information, the combined information may become
classified, and if not specifically classified, that information certainly becomes
more sensitive. For example, combining a contractor’s name with a customer
can result in a classified document. Accordingly, every precaution possible is
taken to avoid even the slightest exposure to a compromise. For that reason, all
of the assignment folders, classified and unclassified, are maintained in the
SCIF and only individuals with the proper clearances and special access
program briefings are allowed access to the working papers on a need-to-know
basis. Any plans or recommendations that the Inspector General, DoD, may
have for reviewing the Field Detachment audit work should be made to fully
comply with the secured environment process and should not be dependant upon
any “workarounds”—so that they can be carried out without the possibility of
jeopardizing security.

Evaluation Response on Classification Level of Documentation. We did not
request that DCAA provide any workarounds to circumvent security
requirements associated with classified data during our review of forward
pricing assignments. We only requested access to unclassified data and
classified data for which the auditors conducting the evaluation had the
appropriate clearances. DoD Regulation 5200.1-R, “Information Security
Program,” January 14, 1997, identifies the situation described by DCAA as
classification by compilation. The regulation requires that:
           If portions, standing alone, are unclassified, but the document is
           classified by compilation, mark the portions “(U)” and the document
           and pages with the classification of the compilation. You must also
           add an explanation of the classification. . . . When a document
           consisting of individually unclassified items of information is
           classified by compilation . . . the overall classification shall be
           marked conspicuously at the top and bottom of each page and the
           outside of the front and back covers (if there are covers). An
           explanation of the basis for classification by compilation shall be
           placed on the face of the document or included in the text.

The regulation states that classified files, folders, and similar groups of
documents must have clear classification markings on the outside of the folder
or holder; although, the cover sheets need not be attached when the item is in
secure storage. However, that does not alleviate the requirement to specifically
identify and appropriately mark documents that are classified. In addition, the
regulation requires that working papers, defined as “documents and material
                                      49
    accumulated or created in the preparation of finished documents and material,”
    containing classified information be marked with the highest classification of
    any information contained therein. Also, DCAA has expressed concern that,
    while data may not be classified, it may be sensitive. According to DoD
    Regulation 5200.1-R, sensitive information is defined by the Computer Security
    Act of 1987, which applies to unclassified information that deserves protection.
    The working papers and documents that are sensitive should be appropriately
    marked.



Finding C
    Management Comments on Criteria. DCAA disagreed that they used
    ill-defined criteria for evaluating audit work. DCAA stated that the reviewers
    relied on the CAM and other official and well-established sources of DCAA
    audit guidance (for example, MRDs and DCAA regulations and instructions).
    The guidance is GAS-based, sufficiently detailed, regularly maintained, and the
    same guidance used to actually perform the audits. In addition, DCAA has
    provided the Inspector General, DoD, with all of the DCAA published guidance
    since about 1988. Detailed references to the appropriate CAM guidance have
    been incorporated into most of the DCAA Checklist questions. In short, the
    guidance used was generally more comprehensive than that used by most other
    internal/external reviewers.

    Evaluation Response on Criteria. We disagree with the DCAA position.
    While DCAA identified its criteria as the CAM, MRDs, and DCAA regulations
    and instructions, DCAA did not vet that criteria to identify and prioritize the
    most important elements to be tested during the internal quality assurance
    reviews. For example, when we reviewed the criteria that DCAA cited,
    CAM 5-101, for questions 6.1 and 6.2 on understanding internal controls, we
    found that the manual referenced CAM 5-102 through CAM 5-1200 for
    descriptions of requirements and audit guidance. That material encompasses
    145 pages. In addition, the DCAA Checklist did not include any references to
    any MRDs or any DCAA regulation or instruction. The guidance to be covered
    by DCAA during its quality assurance reviews was generally more
    comprehensive than that covered by most other internal/external reviewers
    simply because DCAA has issued more official guidance than other Government
    audit organizations. Therefore, to plan and conduct efficient and effective
    quality assurance reviews using such voluminous guidance, DCAA needs to
    identify and use well-defined and specific criteria.

    Management Comments on Cross-Referencing Trip Reports. DCAA
    disagrees that its trip reports were not adequately cross-referenced to the
    appropriate documents supporting the findings, including the key working
    papers of the reviewed audit. DCAA contends that the trip reports were all
    cross-referenced in detail to both the individual audits reviewed and to the
    individual DCAA Checklist questions. For each significant issue of
    noncompliance addressed, the trip report identified all of the corresponding
    “no” answers on each DCAA Checklist and referenced each “no” answer to the
                                          50
specific audit reviewed and DCAA Checklist. The DCAA Checklists, in turn,
refer the reader to the particular deficiency in the audit, audit work package,
and or audit report for which each “no” response was recorded.

Evaluation Response on Cross-Referencing Trip Reports. We agree that
each trip report identified the forward pricing assignment being discussed and
the DCAA Checklist question identifying the noncompliance. However, DCAA
did not adequately cross-reference significant findings and conclusions in the
trip report to the reviewer’s working papers. For example, the trip report for
one assignment at one FAO contained the following explanation as to why the
reviewer answered “no” to DCAA Checklist questions 1.1 and 1.2.
           The [contractor] IPT [integrated process team] proposed evaluation
           (A.4 above) was reported as if it were an audit, however, it is evident
           that an agreed-upon procedure evaluation was actually performed.
           The customer initially requested an audit and the acknowledgement
           letter clearly stated that a full audit would be performed. However,
           during the IPT process, it was agreed that the auditor would review
           only the proposed rates. The auditor completed the assignment using
           the standard audit program for an application of agreed-upon
           procedure review. During our review, the FAO acknowledged that a
           full audit was not performed and agreed that they should have issued
           an “Application of Agreed-Upon Procedures Report”. As a result, the
           review was noncompliant with the reporting standards under GAGAS
           and Agency policy. For this reason, we marked checklist items 1.1
           and 1.2 under Due Professional Care, “No”.

However, the comment that the DCAA reviewer wrote for DCAA Checklist
questions 1.1 and 1.2 was, “An agreed-upon procedures review was performed.
Audit report on evaluation proposal issued.” The DCAA reviewer’s working
papers did not include information about agreements made during the integrated
process team process or any memorandums of discussion with FAO personnel
except for the exit conference notes, which did not specifically address this issue
for this assignment. DCAA stated that one of its goals was for the Inspector
General, DoD, to be able to place maximum reliance on DCAA work. For us
to do that, we need an audit trail from the significant findings and conclusions
discussed in trip reports back to the review documentation that supports them.

Management Comments on Criteria for Rating System. DCAA stated that
they had established a process to rate the level at which FAOs were complying
with GAS and DCAA audit policy. DCAA agreed that the process was more
subjective than objective and that, in rating the FAOs covered by the internal
quality assurance review of forward pricing assignments, the reviewers used
only two of the available ratings.

Evaluation Response on Criteria for Rating System. DCAA stated that the
reviewers judgmentally considered and weighted five factors when assigning
ratings to FAOs. DCAA listed the five factors considered in its response.
However, in its March 31, 1999, Microsoft PowerPoint slides that DCAA
considered to be its informal policies and procedures, DCAA made no mention
of any sort of a rating system they might be considering for use during the
internal quality assurance reviews. In addition, the results of the review that the
DCAA headquarters Quality Assurance Division presented to the ESC in
                                     51
December 1999 did not include any sort of criteria that might have been
considered when assigning ratings to FAOs. The first time that any specific,
written criteria for rating FAOs was provided to the Inspector General, DoD,
was in the DCAA March 23, 2001, response to a discussion draft of this report.

Management Comments on Rating System. DCAA expressed concern about
our assessment of the rating for the FAO and the forward pricing assignment
that we described in the report. Specifically, DCAA stated that the forward
pricing assignment referred to was, “actually a fine example of why good
reviewer judgement is critical to the PCIE-based review process and analysis of
its results.” DCAA explained that the assignment in question was a low-risk
cost realism review—not a forward pricing assignment. However, the report
ultimately provided the customer with all the information that he wanted and the
customer later communicated his appreciation to the auditor. DCAA stated that,
“Given the difficulty with question 1.1 [due professional care], the
circumstances of the audit in question, the good quality of the FAO audit files,
and the QA [quality assurance] results from the FAO’s six other audits, the QA
team applied the criteria above and judged the FAO to be operating at a overall
at a high level of compliance.”

Evaluation Response on Rating System. We disagree with the DCAA
position. In our example, the report sent to the customer stated that the purpose
was to determine whether the proposal was acceptable as a basis for negotiating
a fair and reasonable price. The results section contained the following
conflicting statements regarding the review of cost or pricing data:
           The offeror has submitted adequate cost or pricing data. The
           proposal was prepared in accordance with applicable provisions of
           FAR [Federal Acquisition Regulation] and DoD FAR Supplement
           (DFARS). Therefore, we consider the proposal to be acceptable as a
           basis for negotiation of a fair and reasonable price. . . . In accordance
           with FAR 15.804-3, the contractor was not required to submit
           certified cost or pricing data because adequate price competition was
           anticipated.”

For that assignment, the DCAA auditor reviewed only labor and indirect
rates—the contractor did not provide cost or pricing data. In addition, we found
no written documentation from the customer supporting the DCAA statement
that the customer “communicated his appreciation” in either the audit
assignment file or the DCAA reviewer file.

In addition to the assignment where DCAA determined that due professional
care was not met, DCAA determined that the standard did not apply to two
other assignments at the same FAO (an audit of a price proposal and an audit of
forward pricing overhead rates for calendar years 1998 through 2002).
Therefore, for that FAO, DCAA affirmatively found that only four of the seven
assignments met the due professional care standard. Of those four assignments,
DCAA determined that the working papers for one did not contain adequate
documentation supporting the recommend rate position. That is, the working
papers did not contain sufficient, competent, and relevant evidence to support
the conclusions in the audit report.

                                         52
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)

Other Defense Organization
Director, Defense Contract Audit Agency




                                           53
Defense Contract Audit Agency
Comments




                  55
Final Report
 Reference




Page 9




               56
     Final Report
      Reference




     Pages 26-27




     Pages 26-27




57
Final Report
 Reference




Page 43




               58
59
60
     Final Report
      Reference




     Page 9




     Page 18




     Appendix B
     Pages 48-49




61
Final Report
 Reference




Appendix B
Pages 49-50




               62
     Final Report
      Reference




     Pages 12-13




     Page 13




63
Final Report
 Reference




Page 14




               64
     Final Report
      Reference




     Pages 17-18




65
Final Report
 Reference




Pages 16-17




               66
     Final Report
      Reference




     Pages 23-24




67
Final Report
 Reference




Page 23




Page 24




               68
     Final Report
      Reference




     Page 24




69
Final Report
 Reference




Page 28




               70
     Final Report
      Reference




     Page 28




     Page 28




     Page 28–30




     Page 29




71
Final Report
 Reference




Page 29-30


Page 30


Pages 28 & 30




Page 43




Page 43




                72
     Final Report
      Reference




     Page 43




     Page 43




73
Final Report
 Reference




Page 30




Appendix B
Pages 50-51




               74
     Final Report
      Reference




     Page 30




     Page 31




75
Final Report
 Reference




Appendix B
Page 50




Page 32-34



Page 33




               76
     Final Report
      Reference




     Pages 33-34




77
Final Report
 Reference




Pages 34-37




               78
     Final Report
      Reference




     Page 35




79
Final Report
 Reference




Pages 40–41




               80
     Final Report
      Reference




     Appendix B
     Pages 51-52




81
Final Report
 Reference




Appendix B
Page 52




               82
83
84
85
Evaluation Team Members
The Audit Policy and Oversight Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.

Patricia A. Brannin
Wayne C. Berry
Diane H. Stetler
Catherine M. Schneiter
Ted M. Van Why
